<html>
<title> - EXPANDING BROADBAND INFRASTRUCTURE IN THE GRANITE STATE</title>
<body><pre>[Senate Hearing 115-567]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 115-567

                  EXPANDING BROADBAND INFRASTRUCTURE 
                          IN THE GRANITE STATE

=======================================================================

                             FIELD HEARING

                               BEFORE THE

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 13, 2017

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation
                             
                             
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                          


                Available online: http://www.govinfo.gov
                
                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
35-751 PDF                  WASHINGTON : 2019                     
          
-----------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).E-mail, 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="4621362906253335322e232a366825292b68">[email&#160;protected]</a>                                   
                
                
       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                   JOHN THUNE, South Dakota, Chairman
ROGER F. WICKER, Mississippi         BILL NELSON, Florida, Ranking
ROY BLUNT, Missouri                  MARIA CANTWELL, Washington
TED CRUZ, Texas                      AMY KLOBUCHAR, Minnesota
DEB FISCHER, Nebraska                RICHARD BLUMENTHAL, Connecticut
JERRY MORAN, Kansas                  BRIAN SCHATZ, Hawaii
DAN SULLIVAN, Alaska                 EDWARD MARKEY, Massachusetts
DEAN HELLER, Nevada                  CORY BOOKER, New Jersey
JAMES INHOFE, Oklahoma               TOM UDALL, New Mexico
MIKE LEE, Utah                       GARY PETERS, Michigan
RON JOHNSON, Wisconsin               TAMMY BALDWIN, Wisconsin
SHELLEY MOORE CAPITO, West Virginia  TAMMY DUCKWORTH, Illinois
CORY GARDNER, Colorado               MAGGIE HASSAN, New Hampshire
TODD YOUNG, Indiana                  CATHERINE CORTEZ MASTO, Nevada
                       Nick Rossi, Staff Director
                 Adrian Arnakis, Deputy Staff Director
                    Jason Van Beek, General Counsel
                 Kim Lipsky, Democratic Staff Director
              Chris Day, Democratic Deputy Staff Director
                      Renae Black, Senior Counsel
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on October 13, 2017.................................     1
Statement of Senator Hassan......................................     1

                               Witnesses

Melinda Treadwell, Ph.D., Interim President, Keene State College.     1
Hon. Jessica Rosenworcel, Commissioner, Federal Communications 
  Commission.....................................................     3
    Prepared statement...........................................     5
Joshua Cyr, Director, Education and Acceleration, Alpha Loft.....     6
    Prepared statement...........................................     8
Michael C. Reed, President, Northern New England Region, 
  Consolidated Communications....................................     9
    Prepared statement...........................................    11
Brian Shepperd, Director, Broadband Services, University of New 
  Hampshire......................................................    13
    Prepared statement...........................................    15
Grant B. Spellmeyer, Vice President, Federal Affairs and Public 
  Policy, United States Cellular Corporation.....................    17
    Prepared statement...........................................    19
Tom S. Strickland III, President and Co-Owner, Sequoya 
  Technologies Group, LLC........................................    25
    Prepared statement...........................................    27

 
        EXPANDING BROADBAND INFRASTRUCTURE IN THE GRANITE STATE

                              ----------                              


                        FRIDAY, OCTOBER 13, 2017

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                         Keene, NH.
    The Committee met, pursuant to notice, at 10:09 a.m. in 
Centennial Hall Alumni Center, Keene State College, Keene, New 
Hampshire, Hon. Maggie Hassan, presiding.
    Present: Senator Hassan [presiding]

            STATEMENT OF MELINDA TREADWELL, Ph.D., 
             INTERIM PRESIDENT, KEENE STATE COLLEGE

    Dr. Treadwell. Good morning. Welcome, everyone.
    I am Melinda Treadwell, the Interim President here at Keene 
State College, and I am honored to offer a welcome on behalf of 
this incredible academic community in this beautiful campus on 
a sunny, fall day. So I am very glad the weather cooperated 
with us to have you join us on a day that really shines for 
Keene.
    Senator Hassan, thank you so much for your commitment to 
the important issues for this region of our state. I am so 
grateful for it.
    As you all know, we are here today for Senator Hassan's 
field hearing. This is an official field hearing with regard to 
broadband access, and as we all know, when we think about 
economic mobility for communities, there are very few issues as 
important as high speed Internet connectivity.
    Certainly for our region, one of the main reasons Keene 
State is thrilled to host this event--and support you in this--
is we appreciate deeply that our economic access for the 
future, and our future success, will be tied to high speed 
Internet connectivity. I believe rural communities will be left 
behind if we cannot guarantee high speed connectivity.
    So again, thank you again, Senator Hassan, and I will step 
aside for the rest of your hearing.
    So thank you and welcome.

           OPENING STATEMENT OF HON. MAGGIE HASSAN, 
                U.S. SENATOR FROM NEW HAMPSHIRE

    Senator Hassan. Thank you very much, President Treadwell, 
and thank you to the entire Keene State community for hosting 
us today.
    The first thing I will do is call this hearing to order.
    This is an official hearing that will be recorded for the 
Congressional Record.
    It is my distinct pleasure to be here today to call this 
hearing of the Commerce Committee to order.
    I will start by also thanking Senator John Thune, who is 
the Chairman of the Commerce Committee and Senator Bill Nelson, 
our Ranking Member, for allowing this field hearing today. 
They, and their staffs, have been absolutely instrumental in 
orchestrating this hearing, and I am really grateful for their 
efforts.
    I would also like to thank Keene State College, again, for 
hosting this event, and a special thank you to President 
Melinda Treadwell for her remarks just now, and for all the 
work that everybody here did to make this happen.
    Thank you, as well, to our witnesses and everyone in 
attendance for being here this morning, and for their attention 
and commitment to an issue that is absolutely critical to New 
Hampshire and communities across our country.
    A strong telecommunications infrastructure is critical to 
our State's economy, as well as the safety and prosperity of 
all Granite Staters. But too many communities face challenges 
in getting access to broadband. I know that connecting 
communities to broadband is a goal that we all share, and the 
Commerce Committee can do important work in this field.
    But as we continue our efforts in Congress and at the FCC, 
it is critical that we have conversations outside of Washington 
to be successful. That is why I am really pleased that you all 
could join us here in New Hampshire today and that so many 
members of the public are here as well.
    As I travel across our state, I talk to businesses about 
their priorities and their challenges. And time and again, I 
hear from businesses here in the Monadnock region, and up in 
the North Country in particular, about the urgent need to 
strengthen our broadband infrastructure.
    Our people and businesses simply cannot compete in the 21st 
century innovation economy without broadband, and we must act 
now to address what is an urban-rural divide that has persisted 
in our country, and in this state, for far too long.
    Today's field hearing will serve as a forum to continue to 
inform our on-the-ground efforts here in New Hampshire. Your 
voices and your priorities will help provide critical evidence 
and context for me, and for FCC Commissioner Rosenworcel, as we 
make important decisions about rural connectivity.
    During my time as Governor, I was proud to start a 
partnership aimed at enhancing access to high speed broadband 
in New Hampshire's schools. In the Senate, I have joined with 
my Republican colleague, Senator Gardner, in authoring the 
AIRWAVES Act, which would create a spectrum pipeline for our 
country to avoid what experts call a spectrum crunch.
    Spectrum is the finite resource that powers broadband 
connectivity and we will need a lot more of it to meet the 
needs of the 21st century economy.
    Beyond spectrum, we also must make meaningful and immediate 
investments where it counts. There is bipartisan discussion in 
Washington about a possible infrastructure package coming 
forward from this Administration. It is essential that any 
infrastructure package must include broadband buildout and 
investment.
    Finally, we have to work to ensure that our networks are 
resilient. As we have seen with the storms that devastated 
Puerto Rico, Florida, and Texas, there is an immediate need to 
ensure that when networks go down, we have solid plans in place 
to build them back up, or have backup power sources, so that 
individuals can connect to resources and to their loved ones.
    I hope this hearing will provide a platform to discuss 
these important issues and hope to learn more about the 
challenges currently facing our state when it comes to 
broadband.
    I know that we have many experts from our state who have 
provided written testimony, including Chris Rand from Granite 
State Communications; Joshua Meehan of Keene; and State Senator 
Jay Kahn. I look forward to continuing to work together.
    I would also like to acknowledge that all of today's 
remarks, and this written testimony, will become part of the 
Congressional Record.
    So with this in mind, I would like to introduce our first 
witness, FCC Commissioner Jessica Rosenworcel, for her 
statement.
    Welcome, Commissioner.

 STATEMENT OF HON. JESSICA ROSENWORCEL, COMMISSIONER, FEDERAL 
                   COMMUNICATIONS COMMISSION

    Commissioner Rosenworcel. Good morning.
    To everyone here, especially Senator Hassan, thank you for 
having me here in the Granite State. I am a New England native, 
so the opportunity to come up here and join you is both an 
honor and a treat.
    Now, back in Washington, I have the privilege of serving as 
Commissioner at the Federal Communications Commission. I have a 
front row seat at the digital revolution and every day, I see 
how technology is changing every aspect of our civic and 
commercial life.
    Every day, I am reminded that the future belongs to the 
connected. No matter who you are or where you live in this 
country, you are going to need access to modern communications 
for a fair shot at 21st century success.
    But the fact of the matter is that too many Americans lack 
access to broadband. This includes 23 million Americans living 
in rural communities and includes 15 percent of those living in 
rural New Hampshire. This is unacceptable and we need to do 
better.
    But I do not think statistics like those tell the whole 
story. To get a picture of just what it means to be consigned 
on the wrong side of the digital divide, I want to talk for a 
moment about something that may be unexpected. I want to talk 
about kids and homework.
    Today, 7-in-10 teachers assign homework that requires 
broadband access, but data from the FCC shows that 1-in-3 
households do not subscribe to broadband service, and where 
those numbers overlap is what I call the Homework Gap.
    According to the Senate Joint Economic Committee, the 
Homework Gap is real. By their estimate, 12 million children 
all across the country live in households without Internet 
access. I am certain that some of them are right here in New 
Hampshire.
    I have heard from students in Texas who do homework at fast 
food restaurants with fries because it is the only place they 
know where they can get a free Wi-Fi signal.
    I have spoken to high school football players in New Mexico 
who linger in the school parking lot after their games in the 
pitch black dark holding their devices because it is the only 
place they know to get a reliable connection.
    These children have grit, but it should not be this hard 
because today, no child can be left offline. Developing digital 
skills is flat out essential for education and the modern 
economy. So I hope that adds a human dimension to what it means 
to not have access to broadband.
    And now, let us talk a little bit about what we can do 
about it.
    First, if we want to get serious about addressing our 
broadband problems, we need to know exactly where those 
problems are most pronounced. We need better mapping.
    Nearly 9 years ago, in the American Recovery and 
Reinvestment Act, Congress had a good idea. It created a 
National Broadband Map identifying where deployment had and had 
not occurred.
    But if you check that map out right now online, you will 
find that it was last updated more than 3 years ago. I do not 
have to tell you that in the Internet Age, three years is an 
eternity.
    So I think it is time for a National Broadband Map that 
offers an honest and current picture of wired and wireless 
broadband all across the country.
    Now, we can build that map in Washington with a whole bunch 
of data, but I also think it would be great if we had a clearer 
picture on the ground. I am a big believer in the wisdom of 
crowds, so I think we should put it to the public.
    If you have not been able to get service, or live in an 
area that lacks it, help us at the FCC make a map that reflects 
your experience and write us at BroadbandFail-at-FCC.gov. I 
have set up that e-mail account to take in ideas, and I am 
going to share every one of them with the Chairman, and my 
colleagues, and put on the pressure to do something about it.
    Finally, I want to point out that connectivity matters not 
just on the ground, but in the skies. Wireless service is an 
essential part of our Digital Age infrastructure. For decades, 
the FCC has led the world with its auction models for the 
distribution of spectrum licenses.
    We have made a lot of progress powering the mobile devices 
that so many of us have come to rely on every day. But take a 
drive along some rural roads, probably not that far from here, 
and you will know that there is room for improvement.
    It is one reason why the AIRWAVES Act, that Senator Hassan 
and Senator Gardner have put forward, is so important. It helps 
identify more licensed and unlicensed spectrum, and makes sure 
we bring it to market in a timely way because it has deadlines.
    On top of that, it sets up a fund whereby auction revenues 
will help support wireless broadband infrastructure in rural 
communities. That is the kind of creative effort that would 
help, in time, lead to more coverage on a broadband map and 
also help close the Homework Gap.
    So thank you for having me here today.
    I look forward to any questions you might have.
    [The prepared statement of Commissioner Rosenworcel 
follows:]

       Prepared Statement of Jessica Rosenworcel, Commissioner, 
                   Federal Communications Commission
    Good morning, Chairman Thune, Ranking Member Nelson, Members of the 
Committee and in particular, Senator Hassan. Thank you for the 
opportunity to appear before you today in the Granite State. I am a New 
England native so joining you here--back in the part of the country I 
call home--is an honor and a treat.
    In Washington, I have the privilege of serving as a Commissioner at 
the Federal Communications Commission. I have a front row seat at the 
digital revolution. Every day I see how technology is changing every 
aspect of civic and commercial life. Every day I am reminded that the 
future belongs to the connected. No matter who you are or where you 
live in this country, you need access to modern communications for a 
fair shot at 21st century success.
    But the fact of the matter is that too many Americans lack access 
to broadband. This includes 23 million Americans living in rural areas. 
This includes 15 percent of those living in rural New Hampshire. This 
is not acceptable. We need to do better.
    But statistics like these don't tell the whole story. To get a 
picture of just what it means to be consigned to the wrong side of the 
digital divide consider kids and homework. Today, seven in ten teachers 
assign homework that requires broadband access. But data from the FCC 
show that as many as one in three households do not subscribe to 
Internet service. Where those numbers overlap is what I call the 
Homework Gap. According to the Senate Joint Economic Committee, the 
Homework Gap is real. By their estimate, it affects 12 million children 
across the country.
    I am sure it affects some of them right here in New Hampshire. 
Because I have heard from students in Texas who do homework at fast 
food restaurants with fries--just to get a free Wi-Fi signal. I have 
heard from high school football players in New Mexico who linger in the 
school parking lot after games with devices in the dark because it is 
the only place they can get a reliable connection. These kids have 
grit. But it shouldn't be this hard. Because today no child can be left 
offline--developing digital skills is flat-out essential for education 
and the modern economy.
    I hope that adds a human dimension to what it means to not have 
access to broadband. So now let me tell you what we can do about it.
    First, if we want to get serious about addressing our broadband 
problems, we need to know exactly where those problems are most 
pronounced. We need better mapping. Nearly nine years ago, in the 
American Recovery and Reinvestment Act, Congress had a good idea. It 
created a National Broadband Map, identifying where deployment has and 
has not occurred. But if you check that map online now you will see 
that it was last updated over three years ago. In the Internet age, 
three years is an eternity.
    You cannot manage what you do not measure. So I think it's time for 
a National Broadband Map that offers an honest picture of wired and 
wireless broadband across the country. Too often the FCC cobbles 
together data for each individual rulemaking and report without a 
comprehensive and updated snapshot of where service is and is not.
    We can build this map in Washington, but it would be great if we 
had a clearer picture on the ground. I'm a big believer in the wisdom 
of crowds, so I think we should put it to the public. If you've not 
been able to get service, or live in an area that lacks it, help us 
make a map and write me at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0e6c7c616f6a6c6f606a686f67624e686d6d2069617820">[email&#160;protected]</a> I've set this account 
up to take in your ideas. I will share every one of them with the 
agency Chairman--and put on pressure to do something about it.
    Mapping is important because it can improve FCC work under the 
Communications Act. Section 254 directs the FCC to ensure ``consumers 
in all regions of the Nation'' have access to communications, with 
rural rates reasonably comparable to urban rates. To do so we have more 
ongoing universal service proceedings than I have time to talk about 
today. But one thing is clear: with better data we will do a better 
job.
    Finally, I want to point out that connectivity matters not just on 
the ground, but in the skies. Wireless service is an essential part of 
digital age infrastructure. For decades, the FCC has led the world with 
its auction models for the distribution of spectrum licenses. We've 
made a lot of progress powering the mobile devices that so many of us 
rely on every day. But take a drive along some rural roads and you will 
know there is room for improvement.
    It's one reason why the AIRWAVES Act from Senator Hassan and 
Senator Gardner is so important. It helps identify more licensed and 
unlicensed spectrum that can be brought to market to improve wireless 
broadband. On top of that, it sets up a fund whereby auction revenues 
will help support wireless broadband infrastructure in rural America. 
It's the kind of creative effort that would in time lead to more 
coverage on a broadband map and also help bridge the Homework Gap. It's 
good stuff.
    Let me close by thanking you for having me at this hearing. I look 
forward to answering any questions you may have.

    Senator Hassan. Thank you very much, Commissioner.
    Now, it is my pleasure to introduce Mr. Joshua Cyr, who is 
the Director of Education and Acceleration at Alpha Loft.
    Welcome, Mr. Cyr.

              STATEMENT OF JOSHUA CYR, DIRECTOR, 
             EDUCATION AND ACCELERATION, ALPHA LOFT

    Mr. Cyr. Good morning and thank you.
    Thank you, Senator Hassan, for convening this field hearing 
and inviting me.
    Again, my name is Joshua Cyr. I am the Director of 
Education and Acceleration at Alpha Loft, a nonprofit that aids 
founders of innovative startups here in New Hampshire.
    My job includes developing and running our education 
programs for early stage startups, as well as running our 
startup accelerator. Previously, I have been a software 
developer for a tech company and I am now a technology advocate 
in the Seacoast area.
    I regularly run tech meet ups, symposiums, and other events 
promoting education around new tech for both technologists and 
the general public.
    I have also been able to experience just a little bit of 
politics and policy over the last 2 years, as I am finishing my 
first term as a City Councilor for the City of Portsmouth.
    I ponder the topic of broadband in New Hampshire quite a 
bit primarily from a perspective of business and consumer 
needs, State health, and a vision of what is and what is to 
come. I would like to relate to you three areas of concern that 
I have.
    First is, a lack of broadband turns away those who we are 
working the hardest to attract. New Hampshire, like other 
states, has an aging population and it is creating numerous, 
critical issues for our state. Lack of high speed Internet 
exacerbates the problem and frustrates our efforts in 
attracting and retaining the younger generations.
    When it comes to making a decision on where to live, 
broadband plays a key role. Comcast recently surveyed apartment 
managers about the most important amenities for decisionmaking. 
A highlight of the report was that high speed Internet and Wi-
Fi are among the most important factors for apartment dwellers 
when making a decision, even more than in-room laundry 
facilities.
    In addition to highly valuing broadband, broadband use is 
also dramatically higher with younger generations. In 2011, the 
average 18 to 24 year old Millennial consumed 25 hours of 
traditional television per week; today, they consumer closer to 
14. Ages 17 and under, watch between 2 and 4 hours of YouTube 
and less than an hour of traditional television per day.
    People are not just consuming video. Remote work has become 
a viable option for many. Frequently, this requires use of 
bandwidth intensive tools such as Google Hangouts, FaceTime, 
Skype, WebEx, et cetera. This is required for professionals and 
it means that they must move to where broadband is adequate and 
rule out the many areas in our state that is not.
    Finally, more and more people are streaming their own 
personal activities as video for others to watch. This is in 
the form of streamed videogame playing, performances, talk 
shows, Facebook Live, and more. This interactive format 
requires reliable upload speeds as well.
    Today, it is not unusual for a family to be consuming 
multiple bandwidth-intensive applications at the same time in 
many rooms of the home, and we simply cannot measure bandwidth 
needs by the use of just one application or even a few.
    Secondarily, what I am concerned about is that consumers 
are confused that mobile broadband is not adequate. It may seem 
like the answer to rural broadband is mobile access. However, 
the current unlimited plans are not really unlimited in the 
sense the consumer would likely expect.
    Mobile plans will de-prioritize data after a user hits a 
certain threshold in a given month. This varies by carrier in 
the 20 to 30 gigabyte range, as I have seen recently. This cap 
can hit very quickly on mobile devices; after that, the speeds 
slowdown. Speeds also change when tethering to desktop 
television that is far slower. Mobile speeds, availability, and 
reliability are simply not adequate as a primary source for 
Internet for consumers.
    And finally, our future is full of heavy bandwidth uses not 
yet considered in places we do not expect. Humans are not good 
at planning for the future. Most are not aware that autonomous 
cars are literally just around the corner. We have not done a 
good job in taking into account the many changing dynamics that 
come into play with this hugely disruptive event.
    For example, once we are no longer focused on the task of 
driving, entirely new forms of auto entertainment will emerge. 
The cars are remarkably well created as an entertainment hub: a 
captive audience, lots of speakers, plenty of room for screens.
    We do not yet know the kind of entertainment consumption 
that will be popular, but strong contenders include live video, 
movies, AR/VR. We can guess, however, that much of it will be 
bandwidth intensive while the car is in motion.
    Another example of anticipated future demands is the 
explosion and interest in the implementation of IoT, the 
Internet of Things. IoT is common enough now that it is not a 
term used by consumers. As consumers, we simply expect that our 
devices are smart and can communicate with each other.
    While much of our current IoT devices consume and produce 
very little data, that does not mean the future will be the 
same with numerous efforts underway for smart cities, as we 
leave our less urban infrastructure behind.
    For these reasons and more, when thinking about broadband 
availability, we should be thinking about complete coverage, 
not simply covering destination zones.
    In summary, we are not meeting today's needs for many 
citizens in New Hampshire. Our planning for the future must 
take into account that the needs in the future will be 
significantly greater in terms of both data consumption and 
creation.
    The geographic areas covered must be profoundly greater 
than are covered today. If people cannot get what they need, 
they will move to areas that can serve them furthering the 
migration to urban centers. This will make the economics of 
serving rural areas even more difficult.
    Thank you.
    [The prepared statement of Mr. Cyr follows:]

Prepared Statement of Joshua Cyr, Director, Education and Acceleration, 
                               Alpha Loft
    Good morning. Thank you Senator Hassan for convening this field 
hearing and for inviting me.
    My name is Joshua Cyr. I am the Director of Education and 
Acceleration at Alpha Loft, a nonprofit that aids founders of 
innovative startups here in New Hampshire. My job includes developing 
and running our education programs for early stage startups, as well as 
directing our startup accelerator.. Previously I was a software 
developer for a tech company and I am now a technology advocate in the 
seacoast area. I regularly run tech meetups, symposiums, and other 
events promoting education around new tech for both technologists and 
the general public. I have also been able to experience a bit of 
politics and policy over the last two years, as I am finishing my first 
term as a City Councilor for the City of Portsmouth.
    I have pondered the topic of broadband in New Hampshire quite a 
bit. Primarily from a perspective of business and consumer need, state 
health, and in a vision of what is to come. I'd like to relay three 
areas of concern that I have.
Lack of broadband turns away those who we are working hardest to 
        attract.
    New Hampshire, like other states, has an aging population and that 
is creating numerous critical issues for our state. Lack of high speed 
Internet exacerbates the problem and frustrates our efforts in 
attracting and retaining younger generations.
    When it comes to making a decision on where to live, broadband 
plays a key role. Comcast recently surveyed apartment managers about 
the most important amenities for decision making.
    A highlight of the report was:

    ``High-speed Internet and Wi-Fi are among the most important 
factors to apartment dwellers when making a rental decision--even more 
than in-room laundry facilities '' (1)
    In addition to highly valuing broadband, broadband use is also 
dramatically higher with younger generations. ``In 2011, the average 
18-24 year old millennial consumed about 25 hours of traditional 
television per week--today, they consume closer to 14 hours.'' Ages 17 
and under ``watches between two and four hours of YouTube and less than 
an hour of traditional television per day'' (2)
    People are not just consuming video. Remote work has become a 
viable option for many. Frequently this requires the use of bandwidth 
intensive tools such as Google Hangouts, FaceTime, Skype, WebEx etc. 
This is required for professionals and means that they must move to 
where broadband is adequate and rule out the many areas in our state 
that are not.
    Finally, more and more people are streaming their own personal 
activities as video for others to watch. This is in the form of 
streamed video game playing, performances, talk shows, Facebook Live, 
and more. This interactive format requires reliable upload speeds as 
well.
    Today it is not unusual for a family to be consuming multiple 
bandwidth intensive applications at the same time, in many rooms of the 
home. We can not simply measure bandwidth needs by the use of just one 
application, or even a few.
Consumers are confused and mobile broadband isn't adequate.
    It may seem like the answer to rural broadband is mobile access. 
However the current unlimited plans are not really unlimited in the 
sense that a consumer would expect. Mobile plans will de-prioritize 
data after the user hits a certain threshold of usage in a month. This 
varies by carrier in the 22gb to 30gb range. (4) This cap can be hit 
very quickly on mobile devices. (5) After that the speeds slow down. 
Speeds also change when tethering to desktops or a TV, becoming far 
slower. (6)
    Mobile speeds, availability, and reliability are simply not 
adequate as a primary source of Internet for consumers.
Our future is full of heavy bandwidth uses not yet considered, in 
        places we do not expect.
    Humans are not good at planning for the future. Most are probably 
not aware that autonomous cars are just around the corner, for example. 
(3) We haven't done a good job taking into account the many changing 
dynamics that come into play with this hugely disruptive event.
    For example once we are no longer focused on the task of driving, 
entirely new forms of auto entertainment will emerge. The car is a 
remarkably well created as an entertainment hub. A captive audience, 
lots of speakers, and plenty of room for screens. We don't yet know 
what kinds of entertainment consumption will become popular. Strong 
contenders include live video streaming, movies, VR/AR, for example. We 
can guess, however, that much of it will be bandwidth intensive. While 
a car is in motion.
    Another example of anticipated future demand is the explosion in 
interest and implementation of IOT. The Internet of Things. IOT is 
common enough now that it isn't a term used by consumers. As consumers 
we simply have and expect that our devices are smart and can 
communicate with each other. While much of our current IOT devices 
consume or produce very little data, that doesn't mean the future will 
be the same. With numerous efforts underway for smart cities, are we 
leaving our less urban infrastructure behind?
    For these reasons and more when thinking about broadband 
availability we should be thinking of complete coverage, not simply 
covering destination zones.
Summary
    We are not meeting today's needs for many citizens of New 
Hampshire. Our planning for the future must take into account that the 
needs in the future will be significantly greater in terms of both data 
consumption and creation. The geographic area covered must be 
profoundly greater than that covered are today. If people can't get 
what they need, they will move to areas that can serve them, furthering 
the migration to urban centers. This will make the economics of serving 
rural areas even more difficult.
Appendix:

(1) http://corporate.comcast.com/news-information/news-feed/comcast-
survey-internet-is-a-more-important-amenity-than-laundry-for-apartment-
dwellers--April 2017

(2) http://www.visualcapitalist.com/chart-netflix-generation/--April 
2017

(3) https://www.youtube.com/watch?v=2b3ttqYDwF0&feature=youtu.be--June 
2017

(4) https://www.whistleout.com/CellPhones/Guides/Sprints-unlimited-
plans-everything-you-need-to-know--April 2017

(5) https://help.netflix.com/en/node/43701

(6) https://www.wired.com/2017/08/verizons-unlimited-data-plan-back-
heres-compares-carriers/

    Senator Hassan. Thank you very much, Mr. Cyr.
    Now, it is my pleasure to introduce Mr. Mike Reed, who is 
the State President for Consolidated Communications.
    Mr. Reed. Thank you.
    Senator Hassan. Welcome, and thank you for participating 
today, Mr. Reed.

 STATEMENT OF MICHAEL C. REED, PRESIDENT, NORTHERN NEW ENGLAND 
              REGION, CONSOLIDATED COMMUNICATIONS

    Mr. Reed. Good morning.
    I am Mike Reed. As the Senator said, I am the State 
President for Northern New England for FairPoint 
Communications, now Consolidated Communications. In that role, 
I am responsible for government, regulatory, public relations, 
and economic development in Maine, New Hampshire, and Vermont.
    I really appreciate the opportunity to testify today on the 
importance of broadband in New Hampshire.
    Senator Hassan's assertion is undisputed. Access to the 
Internet is vital in today's economy.
    Consolidated Communications may be a new name to some of 
you, but together with its recent acquisition of FairPoint, 
both companies have a long history of providing and delivering 
service to rural communities. The combined companies, FairPoint 
and Consolidated, employ 4,400 employees, is the ninth largest 
fiber optic provider in the country, spanning 36,000 fiber 
route miles in its 24 State network.
    We applaud Senator Hassan's goal to further investment in 
broadband deployment in rural communities through efforts like 
the introduction of the AIRWAVES Act. The advancement of 
wireless broadband access will still need to be supported by a 
very robust wireline backbone infrastructure.
    We have a very robust network backbone in this State and 
Consolidated-FairPoint operates that backbone. In New England, 
Maine, New Hampshire, and Vermont, we have about 19,000 miles 
of fiber in service today.
    My goal of speaking with you today is to describe some of 
the expansion and technology upgrades that have already 
occurred in rural New Hampshire, including the North Country 
and the Monadnock Region, to meet the growing demands.
    At the same time, we want to ask that your efforts to 
stimulate broadband investment be focused on how best to spend 
limited Federal dollars to provide service to the still un-
served, especially in the most rural areas, making sure we do 
not overbuild existing networks to provide more options to 
people who already have the access.
    Just as a couple of examples, or a few examples, of what 
has been going on in New England, or in New Hampshire 
specifically. We have, New Hampshire has, FairPoint New 
Hampshire has 7,200 miles of fiber across the state. We have 
increased maximum residential broadband speeds to about 25 meg 
in most markets, 50 in some selected markets, and in the 
Portsmouth area a gig.
    We have upgraded our switching offices, switching our 
central offices, switching offices. We have about 120 in New 
Hampshire. We have Ethernet service to each one of those 
offices where we can offer business, education, government, 
healthcare up to 10 gig of service.
    We have increased Internet available to locations in our 
footprint from 63 percent back in 2008 to about 96 percent 
today. And we build fiber to the wireless towers. There are 
about 400 wireless towers in New Hampshire that are served by 
FairPoint-Consolidated.
    In addition to this construction, we have accepted the 
Connect America Fund II money. That is very important to rural 
New Hampshire, rural New England. We have accepted a little 
over $4 million a year to build and maintain 13,131 locations 
in areas of New Hampshire identified by the Federal mapping.
    I am very happy to report that we are right on schedule. We 
are right on schedule with that. The goal, the milepost is 40 
percent complete by the end of 2017 and we are right on target 
for that. Well, we are ahead of target on that.
    We also agreed as part of the FairPoint Consolidated 
acquisition, the commitment to spend the capital expenditure 
dollars, the average that we have had for the last few years 
for the next 3 years. And in addition to that, we have targeted 
an extra million dollars specifically at improving service 
quality in areas of the state. That also is for the next 3 
years.
    One thing I am very proud of, we established a Community 
Broadband Development Team. We have worked with 45 communities 
here in New Hampshire. That totals about 200 communities across 
Maine, New Hampshire, and Vermont actually with the Keene 
community.
    The goal of this team, they work with the communities to 
provide information about broadband, what the community's needs 
are, what they have for existing service, and we map it for the 
community, where the fiber is, what speeds are available in 
what areas of their community, and share with them everything 
we know about what is coming in our company. ``Here is a CAF 
project that is coming to you, and we think it is going to be 
built approximately this time period.''
    The un-served locations we have are not un-served because 
we like to deny service. It is because they are harder to serve 
and they are more expensive. We know where the locations are 
and with that information, we can identify where resources and 
collaboration is needed.
    It is imperative that the Federal dollars that we may find 
are used to expand our network and be very careful not to 
duplicate something that is already there. Unnecessarily 
overbuilding existing facilities can actually hinder Tier 2 
investment in the private sector. That is critical.
    Private sector provisioning of broadband clearly 
demonstrates that worthwhile investment can and is being made 
in the Nation's broadband infrastructure. These private sector 
efforts should be fostered and complemented by whatever we need 
now from local, State, or Federal policy.
    Overall improvement of broadband infrastructure will 
require spending government funds wisely and providing 
incentives and support to help move the private investment 
along.
    In conclusion, I want to thank Senator Hassan for inviting 
me to testify today and assure you that Consolidated is 
committed to moving broadband expansion further in New 
Hampshire.
    Thank you.
    [The prepared statement of Mr. Reed follows:]

Prepared Statement of Michael C. Reed, President, Northern New England 
            region, on behalf of Consolidated Communications
    Good morning, I am Mike Reed, President of the Northern New England 
region for Consolidated Communications. Thank you for the opportunity 
to testify before you today as to the importance of expanding broadband 
infrastructure in New Hampshire, especially in rural areas. Senator 
Hassan's assertion is undisputed--``access to the Internet is vital in 
today's 21st century economy.'' Access to high speed broadband is no 
longer a luxury; it is a necessity for American families, businesses 
and consumers. High-speed Internet access fuels the economic engine 
that unlocks new ways to be more productive, compete for business, 
enable learning in and beyond the classroom and provide high-quality 
healthcare to rural communities. Network expansion and infrastructure 
projects provide immediate benefit for those in more rural and remote 
areas by enabling them to take full advantage of the digital age.
    Consolidated Communications, together with the recently acquired 
FairPoint Communications, has a long history of delivering service to 
rural areas in the 24 states that we serve. The combined companies 
employ 4,400 employees, and is the 9th largest fiber provider spanning 
36,000 fiber route miles in its 24-state fiber network. In the ``old 
days'' it was plain old telephone service (POTS). Today it is high 
speed broadband Internet service. Our team is dedicated to completing 
broadband projects and embracing new technologies that bring critical 
improvements to the ``last mile'' of Consolidated's network that will 
increase broadband speeds to unserved and underserved areas.
    We applaud Senator Hassan's goal to further investment and 
broadband deployment in rural communities through efforts like the 
introduction of the AIRWAVES Act. As technology advances, improvements 
in wireless broadband access may prove to be part of the solution to 
the problem of ubiquitous, nationwide broadband availability. However, 
the old adage ``wireless needs wires'' will continue to hold true. The 
network is all connected--whether wireline, WISP, CLEC, cable or 
wireless, it all needs wires and wireline carriers (incumbent telecom 
or cable). The advancement of wireless broadband access will need to be 
supported by robust wireline backbone infrastructure. As alternative 
methods of funding broadband deployment to high-cost, hard-to-reach 
areas of the country are contemplated, we must be certain to 
efficiently use limited Federal resources by making sure all parts of 
the broadband ecosystem are capable of accommodating the anticipated 
new users and uses of the internet.
    Our goal in speaking with you today is to describe some of the 
expansion and technology upgrades that have already occurred in rural 
New Hampshire (including the North Country and the Monadnock region) to 
meet the growing demands. In addition, we ask that your efforts to 
stimulate broadband investment be focused on how to best spend limited 
Federal resources and taxpayer dollars to provide service to the still 
unserved, especially in the most rural areas, rather than overbuilding 
existing networks to bring more options to those already served.
    On a local level, Consolidated Communications is already in the 
rural community. Formerly as FairPoint Communications, in New Hampshire 
we serve over 215 towns and territories. We operate the largest fully-
owned and managed fiber-based network in northern New England with 
approximately 19,000 miles of fiber. We have a demonstrated commitment 
to investing in our networks to meet the leading edge of communications 
services.
    The following is a summary of our expansion and upgrade investments 
in high-speed Internet in New Hampshire. Since April of 2008, FairPoint 
has:

  <bullet> Invested more than $75M million in communications upgrade 
        and expansion,

  <bullet> Over 7,200 miles of fiber all across the state,

  <bullet> Increased maximum residential broadband speeds from 3Mbps to 
        25Mbps in most markets, 50Mbps in select markets, and 1Gig in 
        Portsmouth,

  <bullet> Increased Internet availability from 63 percent to over 96 
        percent of addresses in our territory,

  <bullet> Upgraded 95 percent of central offices to enable Ethernet 
        services of up to 10 Gbps speeds for business, education, 
        government and healthcare needs,

  <bullet> Built fiber to nearly 400 cell towers, enabling wireless 
        services in the region,

  <bullet> Accepted $4,376,606 in annual CAF II funding to reach 13,131 
        locations and exceeded the YE17 completion metric of 40 percent 
        of funded locations (reported 69.71 percent on 7/1/17 for 
        YE16),

  <bullet> Accepted, as a result of the CCI-FRP acquisition, 
        incremental capital expenditure obligations of $1M annually for 
        3 years for areas of the New Hampshire network that have 
        service quality issues and/or higher than average trouble 
        reports in order to improve basic and wholesale service,

  <bullet> Established a community broadband development team who has 
        worked with more than 45 communities in NH. The team has 
        demonstrated the availability of broadband and the overall 
        network infrastructure in their town or region, known upcoming 
        broadband expansion such as CAF II and provided a glimpse of 
        broadband demand.

    Today, Consolidated and other wireline providers have the ability 
to identify their remaining unserved residential locations. These 
locations remain unserved not out of a desire to deny service but 
because they are harder, and more expensive, to get to. Information 
about the remaining unserved locations should be used to identify where 
resources and collaboration are needed. It is imperative to understand 
the network infrastructure that is already in place and to make sure 
that Federal resources and taxpayer dollars are being used to expand--
not duplicate--broadband network access. Unnecessarily overbuilding 
existing facilities can hinder vitally important private investment in 
broadband network infrastructure. The American Recovery and 
Reinvestment Act of 2009 demonstrated that such inefficient use of 
funding ultimately did not serve areas or expand mobile service as 
Congress anticipated.
    Conversely, utilizing existing network resources, working together 
with alternative providers to get to that last mile--for example by 
providing necessary backhaul to support new cell tower deployments, and 
capitalizing on those efficiencies--for example upgrading end user 
bandwidth ``as we go by'', will result in a more expedient and cost 
effective expansion to those who have been without broadband for too 
long.
    Private sector efforts show that worthwhile investment can be made 
in the Nation's broadband infrastructure. But instead of being competed 
against, private sector efforts should be fostered and complemented by 
local, state and Federal government policy. Overall, improving 
broadband infrastructure will require spending government funds more 
wisely by providing incentives and support for private investment.
    In conclusion, I would like to thank Senator Hassan for inviting me 
to testify today and offer Consolidated's assistance in the furtherance 
of expanding high-speed Internet to the unserved and underserved in 
rural New Hampshire.

    Senator Hassan. Thank you, Mr. Reed.
    And next, we will hear from Mr. Brian Shepperd, the 
Director of Broadband Services for the University of New 
Hampshire.
    Welcome, Mr. Shepperd, and thank you for participating.

  STATEMENT OF BRIAN SHEPPERD, DIRECTOR, BROADBAND SERVICES, 
                  UNIVERSITY OF NEW HAMPSHIRE

    Mr. Shepperd. Thank you, Senator Hassan and thank you for 
the opportunity to speak before you on this committee.
    In my role at the University of New Hampshire, I am 
responsible for the University System's fiber-based Wide Area 
Network that serves all of the USNH institutions, the community 
college system, as well as a number of community anchor 
institutions.
    I will share that New Hampshire's broadband providers have 
made significant progress over the past few years, but we still 
have a lot of work to do to make sure that all of our community 
anchor institutions, businesses, and residents have access to 
fast, reliable, and affordable necessary broadband.
    My past work in this area has provided some insights into 
ways that we can improve access and streamline deployment. So I 
am here to recommend improving pole attachment rules, continued 
funding for broadband mapping and planning, and leveraging the 
E-Rate program.
    The first topic is pole attachments. So New Hampshire's 
Public Utilities Commission's Chapter 1300 rules regulate the 
pole attachment process in New Hampshire. As a component of the 
BTOP project that I managed, we hung fiber on over 24,000 poles 
in the state which highlighted a significant area requiring 
improvement.
    Once that pole attachment fee has been paid to the pole 
owners, the make-ready process consists of the pole owner 
lowering their own cable plant and then coordinating with each 
of the existing third-party attachers to move their own cable 
plant in a lengthy, and potentially costly sequential process. 
I have attached a diagram on Page 4.
    The PUC rules require the pole owners to complete their 
make-ready work within 150 days and each one of the third-party 
attachers is allowed to set their own just and reasonable rates 
for their individual moves based on make-ready rules that are 
not really clearly defined.
    As we prepare for the next decade of technology, it is 
critical that we streamline the pole attachment process. The 
upcoming transition to 5G LTE will likely place even greater 
demand on the poles. In the pole attachment process as 
microcells, we utilize both the top of the poles and the 
communication space for backhaul.
    While the pole attachment issues exist in most states, they 
can be minimized by implementing the concept of One Touch Make-
Ready. Certified construction crews are allowed to 
simultaneously make all the necessary changes to a utility pole 
to make it ready for a new attachment. This streamlines the 
make-ready process, shortens the timeline, and reduces the 
costs for both existing and new entrants, since it only takes 
one truck roll, one police detail, and one scheduler to 
accomplish that work.
    Like New Hampshire, a number of the states also legislate 
their own pole attachment rules. Perhaps the FCC rules should 
be amended to require that those states meet or exceed the FCC 
timetables for pole owners and third-party attachers.
    The next topic is broadband mapping and planning, which the 
Commissioner spoke to. We have found that our work in this area 
has been challenged by the low resolution of the data that is 
collected as part of this as one home served in a census block 
shows that the entire census block has been served.
    We propose the providers be required to submit address-
level service data so that the estimates of availability are 
not overstated.
    In addition, there is considerable delay between when the 
data are submitted to the FCC and when they are made publicly 
available. This has resulted in efforts to enhance broadband in 
some areas where the providers claim has already been served 
because of that delay.
    We also find there is a lack of full participation by some 
providers and we are not sure why there is no recourse for them 
not having to provide that data.
    The planning and outreach component of our broadband 
mapping and planning program is challenged by a lack of 
resource since these programs offer data and resources which 
are critical to making informed decisions around broadband 
issues.
    Ideally, there would be funds made available to continue 
that type of program in each state going forward.
    The next topic is E-Rate and over the past 2 years, the 
FCC's E-Rate modernization program has placed an emphasis on 
high speed connections in schools and libraries.
    However, there is still some ambiguity related to the 
providers trying to add additional strands and hitting other 
community anchor institutions and businesses along the path to 
that school.
    Allowing the utilization of an E-Rate funded project to be 
the catalyst for further broadband expansion is a win for 
everybody. So I recommend that the USAC legislation be reviewed 
and clarified to allow, and even encourage, providers to be 
allowed to pay the uplift costs should they decide to provide 
fiber to additional community anchor institutions along the 
way.
    Finally, I recommend that any future Federal funding be 
focused on the construction of high capacity, scalable 
networks. Fiber clearly has the greatest long term scalability. 
So funding projects that push fiber out closer to the rural 
neighborhoods and then leverage existing copper infrastructure 
and wireless infrastructure to complete the last mile would 
provide a suitable interim plan until fiber is ultimately 
deployed every place.
    So I thank you for the opportunity to present here today.
    [The prepared statement of Mr. Shepperd follows:]

  Prepared Statement of Brian Shepperd, Director, Broadband Services, 
                      University of New Hampshire,
    Good morning Senator Hassan and members of the Committee. Thank you 
for the opportunity to appear before you to speak on this important 
topic.
    My name is Brian Shepperd and I am the Director of Broadband 
Services at the University of New Hampshire. I am responsible for the 
University System's fiber-based wide area network, which serves all of 
the System's institutions, the Community College System of New 
Hampshire, as well as some public safety entities. I have been a member 
of the Governor's Telecommunications Planning and Development Advisory 
Committee since 2001.
    I serve on the NH School Connectivity Initiative (NHSCI), created 
by former Governor Hassan and now continuing under Governor Sununu. 
Working in collaboration with the national non-profit 
EducationSuperHighway, NHSCI's goal is to help facilitate fiber 
connectivity to all of our K-12 schools, enhance utilization of E-Rate 
dollars, and expand the use of Wi-Fi to increase the impact of digital 
learning.
    From 2011-2014, I was the program director for New Hampshire's 
National Telecommunications and Information Administration (NTIA) 
Broadband Technology Opportunities Program (BTOP) grant, which 
constructed over 850 miles of fiber optic communications cable in all 
10 counties of New Hampshire. It also included a 19-site public safety 
broadband microwave network shared by five agencies, and a last mile 
fiber project in the western part of NH.
    New Hampshire's broadband providers have made significant progress 
over the past few years, but still have a lot of work to do to ensure 
that all of our community anchor institutions, businesses, and 
residents have access to fast, reliable, and affordable broadband. My 
work in this area has provided insight into ways to improve access and 
streamline deployment. I am here to recommend improving pole attachment 
rules, continued funding for broadband mapping and planning, and 
leveraging the E-Rate program.
    Pole Attachments: The NH Public Utilities Commission Chapter 1300 
rules regulate the pole attachments process in New Hampshire. As a 
component of the BTOP project, we hung fiber on over 24,000 poles in 
the state, which highlighted a significant area needing improvement.
    The pole attachment process begins with an applicant paying a fee 
for a new attachment. Once that fee is paid, the pole owners oversee 
the make-ready process to make room for the new attacher. This 
typically consists of the pole owner lowering their own cable plant and 
then coordinating with each of the existing third-party providers on 
that pole to move their own cable plant in a lengthy and potentially 
costly sequential process (see Attachment 1). The PUC 1300 rules 
require the pole owners to compete their make-ready work within 150 
days and each of the third-party attachers is allowed to set their own 
``just and reasonable'' rates for their individual moves based on make-
ready rules that are not clearly defined.
    During the BTOP construction process, we experienced one provider 
who simply refused to move their cable plant and the pole owners were 
unwilling to move it for them under threat of a lawsuit. The hearings 
related to this revealed that the PUC 1300 rules never envision a 
third-party attacher purposely ``blocking'' a new attacher from 
accessing the legally-obtained space on a utility pole and therefore 
provided no relief in the matter.
    As we prepare for the next decade of technology, it is critical 
that we streamline the pole attachment process. The upcoming transition 
to 5G LTE will likely place even greater demand on the pole attachment 
process as microcells and distributed antenna systems will utilize both 
the top of the poles for antennas as well as the communications space 
for backhaul.
    While pole attachment issues exist in most states, they can be 
minimized by implementing the concept of One Touch Make-Ready (OTMR). 
Several local governments have passed One Touch Make Ready legislation 
(Louisville, San Antonio, Nashville) and, while specific portions of 
the local statutes vary, all carry a unifying theme. Certified 
construction crews chosen either by the pole owners or local 
governments are allowed to make all the necessary changes to a utility 
pole to make it ready for a new attachment. This streamlines the make-
ready process, shortens the timeline, and reduces costs for existing 
and new entrants since it only takes one truck-roll, one police detail, 
and one scheduler to accomplish the work.
    Like New Hampshire, a large number of states also legislate their 
own pole attachment rules. Perhaps the FCC rules should be amended to 
require those states to meet or exceed the FCC timetables for pole 
owners and third-party attachers.
    Broadband Mapping and Planning: The NH Broadband Mapping & Planning 
Program (NHBMPP) was established within the University of New Hampshire 
Earth Systems Research Center in 2010 under the auspices of the NTIA 
State Broadband Initiative (SBI). The Program works to improve 
broadband access and use in the state by assessing and mapping 
broadband availability, and by engaging with communities and other 
stakeholders around planning, technical assistance, capacity building, 
and training initiatives. The mapping component involves regularly 
accessing Form 477 provider data posted by the FCC and analyzing it to 
determine areas of the state that are served, underserved, or unserved 
by broadband.
    This work is challenged by the generalized resolution in the 
provider data as one home connected at the census block level makes it 
appear as though the whole census block is served. Instead, we propose 
that providers be required to submit address-level service data so that 
estimates of availability are not overstated. In addition, there is a 
considerable delay between when the data are submitted to the FCC and 
when they are made publicly available. This has resulted in efforts to 
enhance broadband in areas that the providers claim are already served. 
We also find that there is a lack of full participation by some 
providers with no apparent recourse for not submitting their broadband 
connectivity data.
    The planning/outreach component is challenged by a lack of 
resources. A state broadband fund and state broadband authority could 
provide much-needed support to regional planning commissions and 
municipalities in support of broadband expansion and utilization. The 
NHBMPP offers an important service by delivering data and resources, 
which are critical to making informed decisions around broadband issues 
in the state. Ideally, there would be funds made available to continue 
this type of program in each state.
    E-Rate: Over the past 2 years, the Universal Service Administrative 
Company (USAC) Schools and Libraries (E-Rate) Program has placed an 
emphasis on high-speed connections. However, there is some ambiguity 
related to allowing a provider to add fiber strands to a funded 
construction project for the purpose of serving other CAIs or 
businesses along the same path. At a Schools, Health, Libraries, and 
Broadband (SHLB) conference attended by both FCC and USAC 
representatives, one agency indicated it is acceptable to do so as long 
as the provider pays the uplift for the additional strands that are not 
part of the E-Rate project. In another session, attendees heard that 
the cost of construction for the E-Rate project should be divided 
proportionally between the total number of organizations served by that 
fiber build.
    Allowing the utilization of an E-Rate funded project to be the 
catalyst for further expanding broadband in an area is a fiscally sound 
practice and should be encouraged. I recommend that the USAC 
legislation be reviewed and clarified to allow and encourage providers 
to pay the uplift costs should they decide to provide new fiber service 
to other CAIs or commercial interests along the way. The USDA Rural 
Utility Service telehealth programs allow for this type of project 
enhancement so perhaps that language could provide guidance to USAC.
    Federal Funding: Finally, I recommend that any future Federal 
funding be focused on construction of high capacity, scalable networks. 
Fiber has the greatest long-term scalability so funding projects that 
push fiber out closer to the rural neighborhoods and then utilize the 
existing copper-based infrastructure to complete the last mile would 
provide a suitable interim plan until fiber is ultimately deployed 
everywhere.
    I thank you for this opportunity to testify before you today. With 
permission of the Chair, I am available to answer any questions.
                              Attachment 1
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

    Senator Hassan. Thank you very much, Mr. Shepperd.
    Next, we will hear from Mr. Grant Spellmeyer, who is Vice 
President for Federal Affairs and Public Policy at U.S. 
Cellular.
    Welcome.

   STATEMENT OF GRANT B. SPELLMEYER, VICE PRESIDENT, FEDERAL 
 AFFAIRS AND PUBLIC POLICY, UNITED STATES CELLULAR CORPORATION

    Mr. Spellmeyer. Thank you, Senator.
    I am going to attempt to talk today a little bit about the 
wireless side of the equation in broadband deployment.
    U.S. Cellular has served New Hampshire since 1988. We 
employ more than 100 people and have several hundred towers 
constructed across the state.
    My written testimony has a lot of stuff in it about the 
benefits of broadband and the job not being done. I am not 
going to spend a lot of time dwelling on that here today. You 
can read that.
    I, instead, would offer three major points.
    The first one is that the job of broadband deployment is 
expensive and it is not much more complicated than that. U.S. 
Cellular has used Universal Service Funding over the last 
decade to deploy more than 1,000 towers across the United 
States, many of them in rural areas like New Hampshire.
    I will tell you that the cost to construct a tower, on 
average, exceeds $400,000 for us. That is expensive.
    When you focus on a state like New Hampshire, and the 
experiences that we have had, it is quite common for us to 
spend more than $1 million to construct a tower in a 
mountainous area. A lot of that is driven by cost to put roads 
in, to bring in fiber backhaul. It is an extremely expensive 
proposition and in many areas the customer density simply is 
not high enough to warrant $1 million investment, and we need 
to make those choices very carefully.
    If you look at Page 8 of my written testimony, you will see 
a map and I know you cannot really see it here today. But it 
shows the FCC's estimate last year of the areas of the country 
that still lack 4G broadband service from wireless providers.
    If you could see New Hampshire, you would see that the FCC 
identified that there was a problem in the very northern part 
of the state, but that is it. The data that has been there to 
date shows that the job is done. I know that is not true. I saw 
it this morning as I drove over from Manchester carrying phones 
from multiple providers.
    I applaud Commissioner Rosenworcel's call earlier in her 
testimony to solicit consumer input. I know that the consumers 
know that the job is not done.
    Let me talk for a minute about the job that remains.
    Assuming this inaccurate map is, in fact, accurate, we know 
that the job needs at least $20 billion to finish it across 
rural America, and that is an awful lot of money.
    Now, the good news is that the FCC has created something 
called Mobility Fund II. They have devoted $4.5 billion over 
the next decade to try to fix that gap. But $4.5 billion falls 
far short of the $20 billion that we believe is needed to do 
the job.
    I hate to tell you, but it is going to get worse. There was 
a reference to 5G, the next generation of mobile technology, 
that is going to make those autonomous cars a reality.
    The challenge, in most experts' opinion, is that you are 
going to need a whole lot more towers to deliver 5G and this 
rural-urban divide is only going to get worse. I think, at that 
point, it will be unacceptable to everyone.
    I hate analogies, but somebody was reminding me of the 
famous scene from the movie ``Jaws,'' where Roy Scheider is on 
the boat, and he looks at the captain after seeing the shark, 
and he says, ``Captain, you are going to need a bigger boat.''
    I believe that is what we are dealing with here. 
Fundamentally, we need a bigger boat.
    Bold action is needed. First, as I call for in my 
testimony, we need to pass the AIRWAVES Act, Senate bill 1682. 
It will bring that spectrum that is needed by the wireless 
industry and it will set aside 10 percent of the proceeds to 
help deal with the cost issues that I have talked about. And I 
hope the Senate moves quickly to adopt that bill.
    In addition, the second half of that is the infrastructure 
package. Senator, you talked about it in your opening; 
certainly a significant portion of that needs to go to 
broadband deployment. Estimates have been that there will be a 
trillion dollars in that package. If we can get a small portion 
of that set aside for broadband deployment, it will go a long 
ways to getting that boat.
    The third item I wanted to talk about briefly, and I will 
not dwell on it, is something kind of arcane but it is called 
contribution reform. The Universal Service System is in 
trouble. It is funded based upon interstate revenues. Those 
revenues continue to decline as the world has moved to 
Internet.
    For a bunch of technical reasons, it is going to run out of 
money in the next few years if somebody does not deal with it. 
And so, we certainly support efforts at the Commission. I know 
Commissioner Rosenworcel has been involved in those for a long 
time trying to fix that. We urge Congress at some point to pay 
attention to it as well.
    So thank you.
    [The prepared statement of Mr. Spellmeyer follows:]

  Prepared Statement of Grant B. Spellmeyer, Vice President, Federal 
     Affairs and Public Policy, United States Cellular Corporation
    Mr. Chairman, Senator Hassan, and members of the Committee, my name 
is Grant B. Spellmeyer, and I am the Vice President, Federal Affairs 
and Public Policy at United States Cellular Corporation. Thank you for 
the opportunity to discuss ideas for expanding broadband in New 
Hampshire's rural areas.
I. Introduction
    U.S. Cellular provides mobile wireless telephone and broadband 
services in nearly 200 markets across 23 states located in regional 
clusters across the country, including one here in New England, 
comprising New Hampshire, Maine, and Vermont. We serve overwhelmingly 
rural areas in many states represented on this committee, such as 
Missouri, Nebraska, Kansas, Washington, West Virginia, Oklahoma, 
Wisconsin, and Illinois.
    Much of our business involves finding ways to build cell towers in 
small towns and on rural roads, areas where population density, income 
levels, and commercial development are often well below those in our 
Nation's urban areas. Consequently, we are constantly thinking about 
ways to address the economics of providing vital services to areas that 
present financial challenges to build, maintain, and upgrade.
    Earlier this year, our Chairman, Ted Carlson, testified before the 
Senate and House of Representatives, noting that much of our Nation's 
business success in the 20th Century was built upon our backbone 
infrastructure--our rail network, our interstate highway system, our 
electrical grid, and our fixed line telephone system--all of which 
blossomed with the active engagement of the public and private sectors. 
This hearing is an important step toward making all of the United 
States more competitive in the 21st Century. While we are today focused 
on New Hampshire, all of rural America is racing to build super-fast 
broadband networks that can compete with our urban/suburban areas, as 
well as many other countries openly seeking to lead this information 
revolution.
    Sparsely populated rural areas are a perfect illustration of the 
rule that capital flows to areas with the best conditions for 
investment. Nearly forty years after cell towers began sprouting up 
across America, some rural citizens still can't get high-quality mobile 
wireless coverage to make and hold a telephone call or data session, or 
connect to wired speeds that are comparable to urban areas in price and 
quality. In many areas, service exists at all only because of the 
various universal service support mechanisms that have improved the 
investment case for carriers willing to take on the challenge. 
According to Cisco's Visual Networking Index, there will be 12 billion 
mobile connected devices worldwide in 2021.\1\ This challenges 
policymakers to foster high-quality mobile networks to ensure that 
these devices are all productive tools, wherever citizens need to use 
them.
---------------------------------------------------------------------------
    \1\ See, https://www.cisco.com/c/en/us/solutions/service-provider/
visual-networking-index-vni
/vni-infographic.html.
---------------------------------------------------------------------------
    Consumers' and businesses' reliance upon high-quality, ubiquitous 
mobile broadband deepens every day. For example:

  <bullet> Public Safety. The ability to use 911/E-911/Text-to-911 and 
        eventually NG911, depends 100 percent on high quality coverage, 
        to fully enable location-based services.\2\ When disaster 
        strikes, first responders depend on mobile wireless and 
        broadband networks, which are the first to return to service.
---------------------------------------------------------------------------
    \2\ The FCC estimates that 70 percent of 911 calls are placed from 
wireless phones, and that percentage is growing. See, https://
www.fcc.gov/consumers/guides/911-wireless-services.

  <bullet> Health Care. Mobile devices and applications capable of 
        diagnosing, monitoring and treating various conditions are 
        exploding into the marketplace and revolutionizing health 
        care.\3\ These advances improve patient outcomes, and increase 
        efficient delivery of services, saving millions of dollars. It 
        is now possible for a diabetic patient to continuously monitor, 
        store, and transmit glucose levels to health care providers 
        through a mobile device.\4\ Mobile video conferencing is 
        increasingly important to emergency medical services and in 
        delivering health care to remote areas where facilities are not 
        easily accessible.\5\ These applications are but a small 
        fraction of the incredible health care tools enabled by mobile 
        broadband.
---------------------------------------------------------------------------
    \3\ An updated list of hundreds of approved mobile medical 
applications can be found at: https://www.fda.gov/MedicalDevices/
DigitalHealth/MobileMedicalApplications/ucm368784.htm.
    \4\ http://www.dexcom.com/g5-mobile-cgm. Someday soon, patients may 
wear a contact lens that constantly measures glucose level through 
tears, transmitting the data to attending physicians. See, https://
verily.com/projects/sensors/smart-lens-program/.
    \5\ The FCC's Connect2HealthFCC initiative is a powerful example of 
how broadband data can be used to improve health care. See, https://
www.fcc.gov/about-fcc/fcc-initiatives/connect2
healthfcc; https://www.fcc.gov/reports-research/maps/connect2health/
#ll=39.909736,-95.039063
&z=4&t=insights&inb=in_bb_access&inh=in_diabetes_rate&dmf=none&inc=none&
slb=90,100&sl
h=10,22; and https://www.fcc.gov/document/commissioner-clyburn-
continuation-connect2health
-task-force.

  <bullet> The Internet of Things. Soon, almost any object will be 
        capable of connecting to the Internet. Gartner expects nearly 
        21 billion IoT devices to be deployed by 2020.\6\ According to 
        General Electric, the Industrial Internet, defined as the 
        combination of Big Data and the Internet of Things, may be 
        responsible for $15 trillion (not a typo) of worldwide GDP by 
        2030.\7\
---------------------------------------------------------------------------
    \6\ See, https://www.gartner.com/doc/3558917/forecast-internet-
things--endpoints.
    \7\ See, http://www.ge.com/digital/sites/default/files/industrial-
internet-insights-report.pdf.

  <bullet> Education--the Homework Gap. Students are increasingly using 
        mobile devices to access learning materials, do homework, 
        create presentations, and communicate with teachers. Students 
        with connectivity throughout the community are more likely to 
        meet educational goals, especially in an age where learning 
---------------------------------------------------------------------------
        through the Internet is essential.

  <bullet> Agriculture. Connected tractors, irrigation systems, 
        livestock management, commodity tracking, and many more 
        applications depend upon mobile wireless connectivity. By 
        definition, these services require networks that are not 
        measured by ``road miles covered'' but by actual services 
        reaching their acreage.

  <bullet> Low-income households. For households that cannot afford to 
        purchase a desktop computer, a router, a WiFi access point, and 
        subscribe to both mobile and fixed networks, a single mobile 
        device is capable of meeting voice communications and Internet 
        needs.

    None of the benefits described above will be available to rural 
Americans unless high-quality mobile broadband coverage is available 
everywhere people live, work, and travel. In areas where emergency 
calls cannot connect, or where medical devices cannot transmit data, 
lives will be lost. In areas where tablets and laptops don't work, 
educational opportunities will be foreclosed. The enormous power of the 
Internet of Things cannot be fully realized without ubiquitous mobile 
broadband.
    Below, I discuss several matters that bear on the Federal and state 
government's efforts to improve broadband infrastructure and services 
in rural New Hampshire and other places where traditional market forces 
have not been sufficient to deliver high-quality broadband.
II. The AIRWAVES Act Can Accelerate Broadband Deployment
    U.S. Cellular was happy to see Senators Hassan and Gardner 
introduce S.1682, the ``Advancing Innovation and Reinvigorating 
Widespread Access to Viable Electromagnetic Spectrum Act.'' U.S. 
Cellular has long been a proponent of an ``all of the above'' strategy 
for broadband deployment, with fiber, mobile wireless, fixed wireless, 
licensed spectrum, unlicensed spectrum, and satellite all having an 
important role in knitting together broadband networks that meet the 
needs of every American.
    The AIRWAVES Act requires the FCC to release a steady stream of 
mid-band and high-band spectrum, and to move quickly to complete the 
Spectrum Frontiers proceeding, which will free up several blocks of 
high-band spectrum key to small cell deployments. By giving the FCC 
specific deadlines for completing auctions, it allows the FCC to put 
spectrum to use promptly, removing external pressure on the Commission 
to schedule auctions to maximize revenue while providing potential 
bidders with increased certainty to plan for future auctions. This is 
the right policy choice because the economic and long term societal 
benefits of putting spectrum to use far exceed whatever short-term 
auction revenues might yield.
    U.S. Cellular is also pleased to see that ten percent of AIRWAVES 
Act auction proceeds will be set aside for deployment of rural 
infrastructure. This reflects a Congressional policy priority--to 
develop a steady stream of auction proceeds that can target places most 
in need of infrastructure development. As discussed below, Federal and 
state governments have not sufficiently funded universal service and 
other mechanisms to meet the demand for broadband networks in rural 
America. Congress has set aside proceeds in the past for spectrum 
clearing and other salutary purposes; this is a smart policy choice 
that will have lasting benefits. U.S. Cellular supports the AIRWAVES 
Act, and welcomes other opportunities to make additional spectrum 
available for use in rural America.
III. Congress, the FCC, and the States Must Attack the Digital Divide
A. Expand Universal Service to Meet an Urgent Need
    Building infrastructure in America, whether it be roads, 
electricity, water, or broadband, is a really big job. The past forty 
years have seen dramatic growth in our Nation's capabilities, with 
multiple fixed, mobile, and satellite technologies being deployed, and 
more on the near-term horizon. Yet, at a time when 5G and the Internet 
of Things are just around the corner, many rural Americans remain 
significantly behind, limiting opportunities for education, economic 
development, health care, and much more. Recently, the Pew Internet 
Survey found that the persistent Digital Divide remains, with rural 
Americans lagging eight to ten points behind their urban counterparts 
in four different categories.\8\ Americans living on Tribal lands are 
much farther behind.
---------------------------------------------------------------------------
    \8\ See, http://www.pewresearch.org/fact-tank/2017/05/19/digital-
gap-between-rural-and-non
rural-america-persists/.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    From U.S. Cellular's perspective, the cost of leaving rural 
Americans behind has not been sufficiently studied. There is an 
enormous productivity and economic cost to the Nation from lost 
educational opportunities, poor health care outcomes, and business and 
population migration out of rural areas. Moreover, only recently do we 
get a sense that Federal and state policymakers are fully embracing a 
sense of urgency must be brought to bear with respect to broadband.
    And urgency is what is needed. While the FCC's universal service 
mechanism is the best tool for attacking the Digital Divide, as a tool 
I would describe it as a shovel, when what is needed is a dump truck. 
To illustrate, CostQuest Associates recently did a study to identify 
areas of the country that lack 4G LTE service. Their map, identifying 
areas lacking 4G, is below (purple areas lack 4G):
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    CostQuest's model predicted that it will cost $12.5 billion in 
capital expense to improve our Nation's mobile network to 4G, with an 
annual maintenance capital expense of $1 billion and an annual 
operating expense of $1 billion.\9\
---------------------------------------------------------------------------
    \9\ CostQuest Associates, Cost Study for Unserved 4G Areas (2017) 
at: https://ecfsapi.fcc.gov/file/10218108506527/
2017%200216%20CQ%20Cost%20Study%20for%20Unserved%20Areas%20
FINAL.pdf.
---------------------------------------------------------------------------
    In its Mobility Fund Phase I program, the FCC allocated $300 
million to improve broadband in rural America, about two-thirds of 
which was actually disbursed. The FCC's auction methodology awarded 
support to the lower-cost areas first and the higher-cost areas last. 
As a result, auction funds were exhausted before mountainous terrain 
such in New Hampshire were reached, that is, there were no winning bids 
awarded in New Hampshire in Mobility Fund Phase I. The resulting 
coverage can be seen on the map below.\10\ The blue represents winning 
bids in rural areas and the green represents winning bids on Tribal 
lands.
---------------------------------------------------------------------------
    \10\ See, http://apps.fcc.gov/auction901/map/
auction_result_ext.html.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    For Mobility Fund Phase II, the FCC proposes to invest up to $4.53 
billion, spread over a ten-year period. If CostQuest's estimate is 
accurate, it is not close to covering a $12 billion construction cost, 
plus $20 billion more in operating expenses. We should reach agreement 
on what it will cost to reach ubiquitous 4G, and how much of that 
should be borne by our universal service support mechanism, divide that 
amount by five years, and get it done.
    We have a sense of urgency because if the FCC stays on the same 
trajectory, in ten years rural Americans will likely suffer a wider 
Digital Divide in a 5G (or 6G) world than they do today in the 4G 
world, especially as 5G is expected to build upon 4G networks. 
CostQuest has estimated several 5G deployment scenarios for the US, 
with total capital investment ranging from $61 billion to achieve 
ubiquitous coverage to $250 billion to deploy a network capable of 
autonomous vehicle support and future demand.\11\ In rural areas, 
private and public investment will be required to achieve a service 
level reasonably comparable to that which will come to urban areas. If 
you're watching what Google, Tesla, and all major auto manufacturers 
are doing with autonomous vehicles, it is not too early to be 
considering these issues. In fact, this Committee advanced major 
autonomous vehicle legislation just last week.
---------------------------------------------------------------------------
    \11\ See, Cost Quest Associates, The 5G Mobile Ubiquity Price Tag 
Costs for Full U.S. Deployment Of 5G--With and Without Support for 
Autonomous Driving (2017), at: https://www
.costquest.com/uploads/pdf/5g-mobile-ubiquity-costs-summary.pdf.
---------------------------------------------------------------------------
    The good news is, we don't need a new law to make progress. 
Congress gave the FCC an unequivocal goal, to use its Federal universal 
service mechanism to ensure that rural Americans have access to 
advanced telecommunications and information services that are 
reasonably comparable to those available in urban areas, both in 
quality and price.\12\ Congress ordered the FCC to deploy universal 
service funds sufficient to do the job, and it never capped what the 
FCC could invest.
---------------------------------------------------------------------------
    \12\ See, 47 U.S.C. Sec. 254(b)(3).
---------------------------------------------------------------------------
    And yet, at a time when rural areas need to catch up, the FCC's 
Mobility Fund II plan is not big enough--it is not visionary. Mobile 
broadband networks in rural America are not prepared to deliver the 
volume of traffic that is coming. Any area lacking the necessary 
capabilities will not be a candidate for business growth, nor will it 
be a place with world class health care or educational opportunities.
B. Include Direct Investments in Broadband in any Infrastructure Bill
    The current administration has discussed an infrastructure bill, 
with as much as $1 trillion in investments in all manner of roads, 
bridges, airports, electrical grids, and broadband. We urge the 
Commerce Committee to take the lead and bring forth direct spending 
measures that improve our Nation's fixed and mobile broadband 
infrastructure. New investments in mobile broadband infrastructure each 
year will have multiplier effects, creating jobs and stimulating 
economic growth.\13\ One wireless industry job supports over six 
additional jobs in the economy, almost one and one half times higher 
than U.S. manufacturing sector jobs support.\14\ Each dollar of 
investment in wireless results in $2.32 of economic activity.\15\ We 
hear directly from our employees and customers that managers and 
educated professionals no longer consider rural areas that lack high-
quality mobile broadband services attractive enough to relocate to, or 
to stay in.
---------------------------------------------------------------------------
    \13\ See, http://www2.deloitte.com/content/dam/Deloitte/us/
Documents/technology-media-telecommunications/us-tmt-impactof-4g-
060612.pdf.
    \14\ See, Coleman Bazelon and Giulia McHenry, Mobile Broadband 
Spectrum, A Vital Resource for the U.S. Economy (May 11, 2015) at pp. 
19-20: http://www.brattle.com/system/publications/pdfs/000/005/168/
original/Mobile_Broadband_Spectrum_-_A_Valuable_Resource_for_the
_American_Economy_Bazelon_McHenry_051115.pdf?1431372403.
    \15\ Id.
---------------------------------------------------------------------------
    In U.S. Cellular's experience, an infrastructure bill that focuses 
only on streamlining tower siting regulations and lowering overall 
barriers to entry, while salutary, is not nearly enough. In our 
experience, with the exception of lands controlled by government 
agencies such as the U.S. Forest Service or Bureau of Indian Affairs, 
rural communities want service so much that getting permits is usually 
a non-issue. These communities need an infrastructure bill that targets 
investment in towers, telecommunications equipment, electronics, fiber, 
backup facilities, and related material. Nothing short of a ``Marshall 
Plan'' for broadband in rural America is required.
    If we want to maximize our Nation's capability and to complete 
globally, all sorts of investment in ``public works'' projects are 
required. Let's make sure broadband leads that list. It is a 
fundamental investment in our future.
C. Fix the Broken Contribution Mechanism
    A big problem hindering the FCC from effectively attacking the 
Digital Divide is the broken universal service contribution mechanism, 
which takes a bigger bite out of a smaller pie every year. The levy is 
now almost 20 percent of a consumer's ``interstate telecommunications 
revenue,'' which revenue could fall to zero in the near future.
    This issue is a creature of a statute written 21 years ago, when 
our communications services were separated into two buckets. In an all-
IP world where we are headed, we need a statute that upholds all of 
Commissioner Rosenworcel's four pillars of telecommunications policy--
public safety, universal access, competitive markets, and consumer 
protection.\16\ We need to recognize that an effective universal 
service mechanism is critical to achieving the other three for rural 
Americans.
---------------------------------------------------------------------------
    \16\ See, e.g., https://apps.fcc.gov/edocs_public/attachmatch/DOC-
318723A1.pdf.
---------------------------------------------------------------------------
    If we as a society value universal access to broadband, then it 
makes sense to assess all connections. Indeed, this is the core concept 
of universal service, that everyone contributes to the network, which 
is far more valuable to our society when everyone has high-quality 
service. That said, contributions in an all-IP world is politically 
difficult for the FCC to implement. For well over a decade, the 
Federal-State Joint Board on Universal Service has been wrestling with 
how best to reform the contribution mechanism and we hope to see a 
recommendation soon.
    Over the past several years, both the House and Senate have begun 
drafting various reforms to the 1996 Telecom Act. If a bill moves, 
fixing contributions must be a part of it, to convey to the FCC clearly 
our Nation's priorities for funding rural infrastructure.
D. Tax Adjustments, Siting on Federal Lands, and ``Dig Once'' Can 
        Increase 
        Universal Service Investments
    Congress can make all universal service fund support go farther by 
passing legislation to exclude universal service support from taxable 
income, similar to funds provided under the American Recovery and 
Reinvestment Act. By excluding support from taxation, we will be able 
to use 100 percent of the support received for investments in rural 
areas, and not just the net amount after taxes. If enacted before the 
Mobility Fund II auction, this change would stretch available Federal 
support further, as bidders will be able to target their bids based on 
the cost of providing service, without including a multiplier for tax 
payments.
    In addition, ``dig once'' policies for any Federal infrastructure 
investment that supports installation of underground conduit and fiber 
when building or renovating roads, railways, pipelines, utility 
infrastructure, and energy distribution channels. I understand that dig 
once can reduce the cost of fiber installation by as much as 90 
percent.
    Over three decades after the inauguration of cellular telephone 
service, the ability to obtain rights of way on Federal lands continues 
to be a significant burden for carriers. Legislation that standardizes 
requirements for obtaining rights of way, such as that contained in S. 
19, the MOBILE NOW Act, co-sponsored by Senators Thune and Nelson, can 
help to reduce costs and delays involved in operating on Federal lands 
and is an important first step. We would be happy to see that language 
incorporated into any infrastructure bill or promptly passed by the 
House of Representatives where it sits today.
    In closing, we believe that infrastructure investments multiply 
opportunities. For example, when we build a rural tower that is served 
by fiber, the surrounding community benefits from being able to use our 
mobile wireless network. Other mobile carriers, including public safety 
networks, can co-locate on our tower, increasing competition and 
improving public safety. In addition, the newly deployed fiber can 
branch off to deliver fixed broadband to homes, businesses, hospitals, 
and schools. Every business in the coverage area instantly becomes more 
competitive, having tools they need. All of our citizens have a strong 
desire to access high-quality modern telecommunications and information 
services, and we ask policymakers to help us make these rural networks 
reasonably comparable to those in urban areas.
    Thank you for the opportunity to testify here today.

    Senator Hassan. Thank you very much, Mr. Spellmeyer.
    And now, to Mr. Tom Strickland, who is President and Co-
owner of Sequoya Technologies.
    Good morning, and again, thank you for joining us and thank 
you for being a great business in New Hampshire.

         STATEMENT OF TOM S. STRICKLAND III, PRESIDENT 
         AND CO-OWNER, SEQUOYA TECHNOLOGIES GROUP, LLC

    Mr. Strickland. Good morning.
    Senator Hassan, thank you for this opportunity to come 
before you and the U.S. Senate Commerce Committee to share my 
experiences as a technology provider helping other businesses 
in northern New England succeed in the Information Age.
    I am President and Co-owner of Sequoya Technologies Group 
in Peterborough. I have been in the technology industry since 
1978 in roles ranging from software development, to 
infrastructure management, and consulting.
    I also served on the Board of New Hampshire FastRoads, 
which built a fiber optic open network to provide middle mile 
and last mile services in rural areas of western New Hampshire.
    Sequoya was formed in 2002 and provides comprehensive 
technology services to businesses headquartered in northern New 
England and to their regional offices throughout the country. 
For most of our clients, we manage every aspect of their 
technology and are often directly involved in recommending, 
procuring, and managing broadband services for our clients. 
Thus, we are intimately familiar with the challenges of 
obtaining these services in our area.
    Quality, high speed broadband has become as essential to 
business growth today as rivers were in the 18th and the 19th 
centuries, and as interstate highways were in the 20th.
    Some of the largest and most successful businesses in the 
U.S. do not sell any physical products. Virtually everything 
that Google and Netflix sell is delivered over the Internet. 
These businesses could be located anywhere that people want to 
live and work, and where quality broadband is available.
    While it is true that these established businesses have the 
resources to build high speed Internet virtually anywhere they 
choose, the next Google or Netflix will only locate where high 
speed Internet already exists. My own business could not exist 
without the Internet.
    Even businesses that ship physical products depend on the 
Internet to connect with their customers, their suppliers, and 
the advanced cloud technologies that can give them a 
competitive advantage.
    Over the last 30 years, the Internet has evolved from a 
science network used only by geeks to a utility service that 
businesses depend on. Unfortunately, that rapid evolution of 
technology has outpaced the regulatory framework needed to keep 
it running efficiently and ensure that all businesses compete 
on an equal footing.
    I want to recount specific instances where the lack of 
broadband regulation has caused significant problems in 
obtaining service.
    During the New Hampshire FastRoads network deployment, we 
frequently encountered sluggish responses to pole permit 
requests when those poles were owned by competing services. 
Regulations to prevent this type of obstruction would encourage 
network growth and competition.
    Lack of Universal Service for broadband has resulted in the 
balkanization of the market and leaves small towns at a 
disadvantage when negotiating service agreements with carriers.
    For example, one of my employees lives in Rindge, New 
Hampshire in an area with about 100 homes. His area is 
separated from most of Rindge by a lake and there is no land 
route to the rest of Rindge where cable Internet is provided by 
Argent Communications. However, he is one-half mile from 
Comcast service in Jaffrey.
    My employee will not be served by either of these carriers 
because Argent cannot cross into Jaffrey and Comcast cannot 
cross into Rindge. As a result, he and his 100 neighbors are 
limited to DSL service that performs poorly.
    Lack of transparency makes it difficult to determine which 
carriers can serve a particular location and delays 
installation. Most carriers consider their network maps to be 
intellectual property and do not share them. Thus, we must 
inquire of each carrier and wait for field surveys to be 
completed.
    One of our clients is a power plant in the center of 
Berlin, New Hampshire. When the plant came online in 2013, we 
had to wait several months for a fiber optic line to be 
extended to them. During that time, the plant had to rely on 
cellular Internet service that was expensive and slow.
    This same lack of transparency impacts the cost of 
construction when infrastructure must be extended. I have 
received quotes ranging from $0 to $50,000 to extend cable 
Internet less than one-quarter of a mile along a State highway. 
These quotes were from the same carrier in locations 2 miles 
apart. Just this morning, we received a quote of $6,700 to 
extend service about 200 yards.
    Kimball Physics was started in Wilton, New Hampshire 40 
years ago by a group of physicists from MIT and employs 70 
well-paid, high tech workers. They produce electron optics that 
are used to manufacture most of the high density integrated 
circuits worldwide.
    When they started the business, Internet service was not 
necessary. Today, it is essential, but because of their rural 
location, they are faced with spending $250,000 to extend fiber 
optic service to their facility.
    An established, successful business can afford that and 
might choose to do so in order to stay here and keep the 
quality of life they value. New businesses will look elsewhere 
and these high pay, low impact businesses are the ones we want.
    Businesses need high quality, low latency connections with 
service level guarantees and symmetric bandwidth delivery. 
Unfortunately, many in rural areas have no choice other than 
consumer grade service, which is inadequate for access to the 
cloud services their competitors in other areas take for 
granted.
    In the state of New Hampshire, towns are prohibited from 
bonding to build broadband infrastructure. A community that 
wishes to solve the broadband problem for itself cannot 
reasonably do so.
    The lack of a regulatory framework at the Federal level to 
ensure universal and equitable service for everyone, combined 
with State level prohibitions on bonding, leaves the people and 
businesses of New Hampshire at an unfair disadvantage when 
competing with the rest of the Nation.
    In conclusion, I encourage the Committee to act quickly to 
establish the regulatory framework needed to encourage the 
deployment of broadband infrastructure to New Hampshire and to 
the rest of the United States.
    Our businesses need these services to flourish and compete 
with the rest of the world.
    [The prepared statement of Mr. Strickland follows:]

 Prepared Statement of Tom S. Strickland III, President and Co-Owner, 
                    Sequoya Technologies Group, LLC
    Senator Hassan, thank you for this opportunity to come before you 
and the U.S. Senate Commerce Committee to share my experiences as a 
technology provider helping businesses in New Hampshire and northern 
New England obtain quality broadband Internet service to support and 
grow their businesses.
    I am Tom Strickland, President and Co-owner of Sequoya Technologies 
Group in Peterborough, NH. I have been in the technology industry since 
1978 in roles ranging from software development to infrastructure 
management and consulting. I studied electrical engineering at the 
University of Oklahoma and received a BS in Computer Science from 
Franklin Pierce University.
    From 2011 to 2015 I also served on the board of New Hampshire 
FastRoads, which built a fiber optic open network to provide middle-
mile and last-mile service in rural areas of western New Hampshire.
    Sequoya Technologies Group was formed in 2002 and provides 
comprehensive technology services to businesses headquartered in 
northern New England and to their regional offices throughout the 
country. For the majority of our clients, we manage every aspect of 
their technology, including on premises infrastructure, helpdesk, and 
management of 3rd party technology vendors. In this role, we are often 
directly involved in recommending and procuring broadband services for 
our clients so we are intimately familiar with the challenges of 
obtaining these services in rural New Hampshire.
    Quality, high-speed broadband has become as essential to business 
growth today as rivers were in the 18th and 19th centuries and as 
interstate highways were in the 20th. Some of the largest and most 
successful businesses in the United States don't sell any physical 
products. Virtually everything that Google, Netflix, and many others 
sell is delivered over the Internet. These businesses could be located 
anywhere that people want to live and work and where quality broadband 
is available. And, while it is true that these established businesses 
have the resources to build high speed Internet virtually anywhere they 
choose, the next Google or Netflix will only locate where high speed 
Internet already exists. My own business would not exist without the 
Internet communications infrastructure that connects my office to each 
of my clients. Even more traditional businesses that ship physical 
products depend on the Internet to connect with their customers, their 
suppliers, and the advanced cloud technologies that can give them a 
competitive advantage.
    Over the last 30 years, the Internet has evolved from a science 
network used only by geeks to a utility service that businesses depend 
on. Unfortunately, that rapid evolution of technology has outpaced the 
regulatory frameworks needed to keep it running efficiently and ensure 
that all businesses compete on equal footing.
    There have been specific instances where the lack of broadband 
regulation has caused significant problems in obtaining service.
    In my role with New Hampshire FastRoads, we frequently encountered 
sluggish responses to our pole access permit requests when those poles 
were owned by competing services. Delays were not excessive when the 
poles were owned by entities like PSNH, who did not offer competing 
services. Regulations to prevent this type of obstruction would 
encourage network growth and competition.
    Lack of universal service for broadband has resulted in 
balkanization of the market. For example, one of my employees lives in 
Rindge, NH, in an area with about 100 homes. This particular area is 
separated from most of Rindge by a lake so there is no land route from 
Rindge proper to his area. However, he is \1/2\ mile from the town line 
with Jaffrey, NH. Rindge has a franchise agreement with Argent 
Communications. Jaffrey is served by Comcast. My employee won't be 
served by either of them because Argent can't cross into Jaffrey and 
Comcast can't cross into Rindge. As a result, he is limited to DSL 
service at the distance limit of that technology and, at best, gets 
1.5Mbps service.
    Lack of transparency makes it difficult to determine which carriers 
can serve a particular location and delays procurement of service. Most 
carriers consider their network maps to be intellectual property and do 
not share them. Thus, we must inquire of each carrier and wait for 
field surveys to be completed. One of our clients is a power plant in 
the center of Berlin, NH. When the plant came online in 2013 we had to 
wait several months for an Internet line to be extended to serve them. 
During that time, the plant was forced to rely on cellular Internet 
service that was expensive and slow.
    The opening of my own new office in 2012 was almost delayed due to 
lack of Internet service. The carrier that had surveyed our location 
and assured us of service months in advance, neglected to tell us that 
the actual delivery of their service would take 6 months rather than 
the 2 weeks that is typical.
    This same lack of transparency impacts the cost of construction 
when infrastructure must be extended. I've received quotes of over 
$50,000 to extend consumer-grade cable Internet for \1/4\ mile along a 
state highway and offers to build similar extensions at no charge and 
for comparable services. These quotes were from the same carrier in 
locations 2 miles apart.
    Kimball Physics was started 40 years ago by a group of physicists 
from MIT in Wilton, NH. They manufacture ultra-high vacuum electron 
optics that are used on the International Space Station and around the 
world. When they started the business, Internet service wasn't 
necessary. Today, it is essential and, as a result, they spent $100,000 
to extend fiber optic service to their location. An established 
business can afford to do that and might choose to do so to stay here 
and keep the quality of life they value. New businesses will look 
elsewhere.
    Businesses need high quality, low latency connections with service 
level guarantees and symmetric bandwidth delivery. A consumer 
connection that provides 25Mbps down and 5Mbps up with 80ms latency and 
99 percent uptime is fine for watching Netflix at home, but it is not 
sufficient for a business that needs to upload large files or access 
cloud hosted servers. Mission critical applications and bandwidth-
sensitive services like VoIP don't work reliably on consumer-grade 
Internet service. Unfortunately, most businesses in rural areas have no 
choice other than a consumer-grade service at business-grade prices. 
And, while DSL is still considered broadband, our experience is that 
DSL technology rarely, if ever, delivers the kind of service businesses 
need today. The lack of business-grade Internet services means that 
businesses in our region cannot make use of the cloud services their 
competitors in other areas take for granted.
    In the State of New Hampshire, towns are prohibited from bonding to 
build broadband infrastructure. A community that wishes to solve the 
broadband problem for itself, cannot reasonably do so. If towns could 
not issue bonds to build roads or water lines, we would find that 
unacceptable. The lack of a regulatory framework at the Federal level 
to ensure universal, and equitable, service for everyone combined with 
state level prohibitions on bonding leaves the people and businesses of 
New Hampshire at an unfair disadvantage when competing with the rest of 
the Nation.
    In conclusion, I encourage the committee to act quickly to 
establish the regulatory framework needed to encourage the deployment 
of broadband infrastructure to New Hampshire and to the rest of the 
United States. Our businesses need these services to flourish and 
compete with the rest of the world.

    Senator Hassan. Thank you very much, Mr. Strickland.
    I do have a number of questions that are really intended to 
help us delve a little bit deeper into the topics that you all 
have raised so well, and I am very, very grateful for such 
comprehensive and thoughtful testimony.
    What I will do, as I raise questions, is I will tend to 
direct the question to a panelist or two, but I will try also 
to give you all an opportunity, if there something you want to 
add, after I have asked a couple of people. So if, for some 
reason, I do not notice that you are interested in addressing 
something, feel free to be vigorous and we will make sure that 
we hear from everybody.
    And people should know too that because this is a 
congressional hearing, we will limit the questioner to me, but 
we have asked people from the community for questions as well, 
and I will be raising some questions on behalf of community 
members, so that we can get those in the record. You will hear 
at the end of the hearing the process for keeping the record of 
this congressional hearing open for 10 days so people can 
comment further.
    I want the community to know I started in public life in 
the New Hampshire State Senate, and what we would do in the New 
Hampshire State Senate is members of the community would sign 
in and be asking questions themselves. So this is an adjustment 
for Granite Staters.
    I am very appreciative of everybody who is here and hope 
very much that if you have follow-up questions, you will submit 
them to us.
    My first question concerns the AIRWAVES Act that Senator 
Gardner and I have cosponsored, and I will start with this 
question to you, Commissioner Rosenworcel. First of all, again, 
thank you for coming.
    I wanted to get your feedback on the importance of the 
AIRWAVES Act, which I introduced earlier this year with Senator 
Gardner. This bipartisan legislation would enact a spectrum 
pipeline to meet the needs of a 5G America. It would provide 
additional unlicensed spectrum to benefit our Nation's 
entrepreneurs and innovators, and the AIRWAVES Act would make 
meaningful investments in rural broadband.
    Can you elaborate on what this bill can do for the United 
States, and particularly for rural America?
    Commissioner Rosenworcel. Again, thank you for having me 
here. Coming home is not a hardship assignment.
    The most important infrastructure we have today is 
invisible. You do not see it. It is the airwaves all above us. 
It is how we are building our wireless future, and Congress and 
the Federal Communications Commission participate in the zoning 
of those airwaves.
    If we figure out how to organize them in a way that we can 
cram more activity into our skies, we will all be better off. 
Our devices will work in more places. We will have more things 
that are connected in ways that will make us more effective and 
efficient.
    The first thing we need to do to make that happen is get 
more spectrum to market. It might seem to be a simple thing, 
but I think the greatest benefit of the AIRWAVES Act is the 
fact that you put deadlines on getting that spectrum to market.
    Just talking about it is nice, but putting deadlines on 
getting that spectrum into the market will make an enormous 
difference in rural and urban America.
    Senator Hassan. Well, thank you.
    Mr. Spellmeyer, can you talk a little bit about your 
company's work to begin to plan for and deploy 5G? How does the 
wireless industry generally view the importance of 5G to our 
Nation's wireless networks?
    Mr. Spellmeyer. Thank you, Senator.
    Certainly U.S. Cellular, and all the major wireless 
carriers are busily working and preparing for the arrival of 
5G. Testing is underway. U.S. Cellular has done some testing 
and has extensive discussions with the manufacturers. Some of 
the largest carriers actually have field tests underway.
    So we need equipment that works. We need access to the 
spectrum. Some of that has been auctioned. Some of it will be 
auctioned. If the AIRWAVES Act gets passed, more of it will 
become available on tight timeframes. That is all going to have 
to come together.
    As I said in my oral comments, I think the biggest 
challenge for the arrival of 5G in rural America is the 
significant need for new towers; five, ten, fifteen-fold over 
what exists today.
    The economics of that are really going to be the biggest 
barrier to its arrival in most of New Hampshire.
    Senator Hassan. Thank you.
    One of the purposes of the AIRWAVES Act is to make sure 
that the United States can maintain its leadership in advanced 
wireless networks.
    Can you comment on why that is so important?
    Mr. Spellmeyer. Well, it is important for a number of 
reasons, but I think the biggest of which is for device 
availability.
    We have been active. There is a whole set of global 
standards setting bodies that deal with the operation of 
spectrum across the globe. We need international harmony with 
what is going on around the world so that device manufacturers 
like Apple can build affordable devices that work everywhere.
    Senator Hassan. Thank you.
    Mr. Cyr, I wanted to touch base with you because as we 
know, 5G networks will bring with them lower latency and higher 
capacity. Many believe these benefits will be particularly 
important for the Internet of Things and other sensing 
technologies.
    Do you expect startups to take advantage of these networks 
in the near future?
    Mr. Cyr. Well, absolutely. I think for any startup, you 
find what the problem is and then you create a solution for 
that.
    And so, there are so many problems that have been 
identified and we are just simply waiting for the technology to 
catch up so that we can produce that solution. So I have no 
doubt that there is going to be strong demand for that.
    Senator Hassan. Thank you.
    Would anybody else on the panel like to comment about the 
AIRWAVES legislation?
    Mr. Reed. I will just add, Senator, that as Mr. Spellmeyer 
needs more towers, we have to make sure that we have the 
internal infrastructure in the state to serve those towers.
    Mr. Spellmeyer. Those towers require fiber, and they are on 
the mountain, and they are not inexpensive to build.
    Mr. Reed. We have the core base in our state available 
today. We will just continue to enhance that and expand it as 
needed to serve those towers.
    Mr. Spellmeyer. That is a critical piece.
    Senator Hassan. Thank you.
    Anyone else?
    I will move onto the subject of network resiliency. Again, 
I will start with you, Commissioner.
    We had an unbelievably difficult and challenging hurricane 
season and while the impacts of those recent hurricanes are 
still weighing very heavily on many of our hearts and minds, I 
would like to talk a little bit about emergency preparedness 
and network resiliency.
    What is the FCC doing to ensure that our networks are 
resilient and that the cable, telephone wires, and fiber are 
secure?
    Commissioner Rosenworcel. Thank you. This is an important 
question.
    We are doing some things. I think we should be doing more 
because if you have seen those images of what the wind and rain 
have done in Texas, Florida, Puerto Rico, and the Virgin 
Islands, you realize Mother Nature can be awfully destructive.
    Senator Hassan. Yes.
    Commissioner Rosenworcel. And I think it is incumbent on 
the FCC now to understand what the impact of these weather 
events has been on our Nation's networks because one thing is 
clear to me, we do not have recovery if we do not recover 
communications.
    And so, I have asked for the agency to hold field hearings 
in these locations so that we can learn from these events. And 
make sure we take that knowledge about best practices for 
network resiliency and recovery, and put them to work. Because 
one thing is for sure, we are definitely going to have other 
weather events in the future, and what we can learn from these 
events that have just occurred is really important.
    Senator Hassan. Thank you.
    I know from our office's perspective, dealing with 
constituents who had medical emergencies after these hurricanes 
hit--and the limitations of communications because of the 
devastation on the networks--really prevented absolutely 
critical communication about medical events, among many other 
things.
    So I agree with you that field hearings would be a really 
important way for the Commission to begin to understand the 
impact of these weather events.
    What do you hope as a regulator, Commissioner, that 
communication companies are doing about resiliency as they 
design and build their networks?
    Let me just add, what do you expect from the communications 
companies? And then also, what kind of consumer education do we 
need along with that about resiliency issues?
    Commissioner Rosenworcel. Yes. There is so much in that 
question. Let me just point out something, though, that is 
simple and fundamental.
    More of our networks now rely on commercial power than ever 
before. It used to be that if we had a hurricane or a big 
snowstorm and everything failed, you could pick up your copper 
line and your telephone, and it would work.
    Senator Hassan. Yes.
    Commissioner Rosenworcel. But now, we have to charge. We 
have to stay charged. We have to make sure that our cell towers 
have power too.
    Senator Hassan. Right.
    Commissioner Rosenworcel. And so, what we have is a more 
powerful communication system, but it is more reliant on 
commercial power.
    So figuring out how we all better prepare for it with solar 
charger backup batteries is important from the consumer 
perspective.
    From the provider perspective, we need to figure out, 
especially in storms and the like, how we make sure that there 
are backup generators that are available, and that those 
providers of service get priority for getting fuel when there 
is an emergency and we need recovery.
    Senator Hassan. Thank you.
    Mr. Reed and Mr. Spellmeyer, how do you build resiliency 
into your networks as you deploy and maintain connectivity in 
New Hampshire?
    Mr. Reed, why do you not go first?
    Mr. Reed. I can start that.
    I mean, our network originated in the original Bell System 
and it is built to be very resilient. The improvements in the 
technology----
    I mentioned in New Hampshire, we have 120 switching 
offices. They all have backup, emergency backup, immediate 
battery power, and then a generator that will last for as long 
as it needs to.
    Many of the remote locations, as we are expanding our 
network further and further out, if you need faster speeds, we 
have to move that switching equipment closer to you. And as the 
speeds improve, increase, for example, 25 over, 50 over 20 is 
about 1,600 feet on copper, 1,650 feet.
    So as these remotes move further and further out, many of 
them have battery backup power as well. Some have permanent 
generators. Some have portable generators that we move as 
needed.
    More important than that is the design of the network for 
the resiliency. Self-healing rings. Maine, New Hampshire, and 
Vermont are all tied together. Somebody mentioned Berlin, I 
think. We go right up through Rangeley, Maine over through 
Errol into Berlin. That is part of the network that ties those 
three states together, as well as diverse routes.
    Once we have service in the state, we have to get to the 
world. So we go to Boston. We go to New York City. So there are 
multiple avenues.
    But design of the network for that redundancy, and then the 
emergency backup power has always been a very key issue in our 
business.
    Senator Hassan. Thank you.
    Mr. Spellmeyer.
    Mr. Spellmeyer. So for U.S. Cellular, we are lucky enough, 
I can say that we were not directly impacted by any of the 
recent hurricanes that hit the southern states. However, we 
certainly have dealt with hurricanes in the past.
    The flooding last year in West Virginia and the wildfires 
that are going on in the West right now, it is a continuing 
challenge for wireless carriers.
    Following Hurricane Katrina, the FCC adopted rules that 
required wireless carriers to provide backup battery and power 
to cell sites. Those rules were subsequently challenged in 
court.
    While that court challenge was ongoing, U.S. Cellular made 
the decision that we would, nonetheless, proceed and put backup 
battery power on each and every one of our cell sites across 
the country. And I think that number is in excess of 6,000.
    So we have what we think is an industry-leading backup plan 
in place and we see it when we experience outages, that they 
are minimized, and we are very proud of that. It has served us 
well and I think that is why we are able to attract and 
maintain customers.
    That said, there certainly are challenges even to that. I 
know when Hurricane Sandy hit a couple of years ago, there were 
plenty of stories about carriers, mainly in urban markets, 
running on diesel generators, but those diesel generators 
require fuel. And there were plenty of stories about carriers 
not being able to get fuel to backup power sources in some 
instances because it was commandeered by the National Guard for 
other purposes and all kinds of stuff.
    Senator Hassan. Yes.
    Mr. Spellmeyer. So it is a very complex equation, but we 
are proud of the work we have done.
    Senator Hassan. Well, thank you.
    I will follow up a little bit just because it strikes me 
that states like New Hampshire can pose some particular 
challenges on the resiliency front just in terms of the wide 
range of weather events that we can have.
    So on the one hand, we are talking about hurricanes right 
now. On the other hand, blizzards can also present a particular 
kind of challenge.
    Are there differences in terms of what you have to prepare 
for in these various kinds of weather challenges? And do states 
with this kind of variation in weather pose particular 
problems?
    Mr. Spellmeyer. Yes, they do. I am not sure I am equipped 
to give you the world's best answer on all of those 
differences.
    Senator Hassan. Yes.
    Mr. Spellmeyer. We serve Oklahoma where the tornadoes come 
out of nowhere with no notice. We serve mountain areas where 
you may have 3 days' warning that a storm is coming, and you 
will see our network guys go out and deploy fuel to generators 
and put things in place.
    Senator Hassan. Right.
    Mr. Spellmeyer. So it is a variety of different factors. 
Certainly, these hurricanes that hit the Caribbean look like 
they just wiped the ground clean.
    Senator Hassan. Yes.
    Mr. Reed, do you want to add?
    Mr. Reed. Sure. I can add to that.
    We talked about, Mr. Shepperd here, mentioned poles. That 
is one of the reasons that we have very strict rules about 
poles and attachments. We have to design to the weather. They 
have to be designed so that if there is an ice storm, there is 
a load factor that is built-in to this.
    So we have to be sure that every one that is on those poles 
follows those guidelines.
    Preparation is key. Making sure our generators, we test our 
generators every week in our switching offices, make sure they 
are all set. We have 24-by-7 monitoring on all of our 
equipment. We know when we lose power in Errol, and we can 
dispatch a technician up there while the equipment is still on 
battery.
    So preparation in advance, we know when blizzards are 
coming pretty well now, so. Preparation is key.
    Senator Hassan. Thank you.
    And to the Commissioner's point, too, is always making sure 
that we are prioritizing power needs; the greatest bang for the 
buck in many ways. I thank you all for those comments.
    I want to turn now to a little bit more of a discussion on 
the social and economic benefits of broadband. I think it is 
intuitive for many of us, but maybe I can start with you, Mr. 
Shepperd.
    You have long worked to connect this state to broadband. I 
would love it if you could talk a little bit more about some of 
the unique challenges our state faces in terms of deployment 
and what are the social and economic benefits that accompany 
connectivity?
    Mr. Shepperd. That is an interesting question.
    So from the connectivity side, I spoke to them in my 
testimony, really, that there are definitely challenges.
    I did not say as part of the hearing today, but we 
literally had one provider that refused to move their cable 
plant even though all of the pole attachment agreements say you 
need to do that. They just refused to because they did not want 
the competition. So that was an extreme challenge for us.
    But it goes back to your previous question. It is a little 
ironic that we are talking about trying to expand broadband 
into rural America and un-served areas, but at the same time, 
we are asking the providers to make sure their network is 
resilient and how do they prioritize?
    Senator Hassan. Right.
    Mr. Shepperd. The funding between those two because, as Mr. 
Spellmeyer said, it is expensive. So I do not know if there is 
a great answer and I think they just have to weigh that in 
their own business plans.
    Senator Hassan. Well, and it may be that as we further 
these conversations that Congress has to get involved, too, in 
identifying where we think investments should go and trying to 
help strike that balance with the industry.
    Mr. Strickland, I see you are interested in commenting.
    Mr. Strickland. Well, my own personal story, I think, is 
kind of an example of the social and economic benefit.
    I was fortunate enough 20 years ago to be able to move to 
New Hampshire by choice. My family grew up in Oklahoma with the 
tornadoes, but I had a portable career and one that 
telecommunications allowed me to live wherever I wanted. And 
so, we specifically chose New Hampshire as the place we wanted 
to be and we have never regretted that. This is an amazing 
place.
    I eventually started a business here and so I have a number 
of families now that depend on what we are doing. Again, the 
Internet makes that possible.
    I think that recognizing that the New Hampshire advantage 
may be New Hampshire itself. It is an amazing place. It is a 
place where people want to live their lives, and broadband can 
really enable a lot of them to come here and be part of that 
experience.
    You talked a moment ago about the AIRWAVES Act and what is 
that going to do in terms of devices? I think it is hard to 
envision the innovation that will occur once the infrastructure 
is in place.
    It is hard to see beyond the technology horizon, but I 
guarantee you, there are a million good ideas out there that 
will blossom once the infrastructure is in place. People say, 
``Oh, I could do this.''
    So I think we have to build it and they will come.
    Senator Hassan. Thank you.
    Mr. Cyr, do you want to comment on that? And then I will 
come back to Mr. Strickland.
    Mr. Cyr. Sure. I think like many things that we do, the 
first 90 percent of what we do is remarkably easy compared to 
the last 10 percent of getting it done.
    Senator Hassan. Yes.
    Mr. Cyr. And so there are so many areas in our country 
where economically it is easy. The math is easy. The business 
plan is easy to serve populations.
    That is where it is time for the Government to step up is 
to help support the other areas of our country where we have 
that social obligation to make sure that it is served as well. 
And it is not just purely about the business fundamentals and 
the economics to say whether or not a place should be served or 
not. And so, I think it is critically important purely for that 
perspective.
    If you think about it, we want people to be moving up 
north. The people that are up north desperately need businesses 
to be formed up there.
    Senator Hassan. Right.
    Mr. Cyr. But if you are a business and you are trying to 
decide where you are going to be, you have two primary reasons 
to be there. Well, three. You could do it because you live here 
and you love it.
    Senator Hassan. Yes.
    Mr. Cyr. But otherwise it is all about, ``I am going to be 
where my customers are.''
    Senator Hassan. Right.
    Mr. Cyr. Or, ``I am going to be where the talent is.''
    And if the customers are not going to be up north because 
they cannot get access to the Internet, or the talent is not 
going to be up north because they cannot get access to the 
Internet, the businesses are not going to follow and it is a 
perpetual cycle.
    So sometimes, it just needs to be jumpstarted because as we 
said earlier, remarkable things can happen once we get the 
infrastructure in place. They can jumpstart and revitalize the 
entire economics.
    Senator Hassan. So you are really articulating here that 
the reality for new businesses and entrepreneur, which is if 
there is not good access to broadband, to connectivity--both 
for purposes of connecting to customers, but also attracting 
talent and giving talent the tools it needs to do the work--it 
is really a nonstarter for those folks.
    Mr. Cyr. Sure. For many, many industries. And so I think 
you could pretty well guess in our North Country, the 
industries that flourish up there and those that are not 
present and there is a good reason why.
    Senator Hassan. Yes.
    Mr. Strickland. Briefly, Senator. Two things that come to 
mind for me as you were asking the question. The law 
enforcement officer in the back of the room, his radio went 
off, and he stepped out.
    I think that is the best reminder for me of the importance 
of the basic level of connectivity. If we brought him back in 
the room, I am sure he could tell plenty of stories about where 
it is still needed and why it is still needed, and we see that 
in Puerto Rico today.
    The second one is a health benefit. If you look at things 
like the Apple watch that is on my wrist, they continue to make 
tremendous advances in terms of medical monitoring; the ability 
to pick up the fact that you are going into cardiac arrhythmia 
before you do.
    We are not too far away from the point where, I think, that 
watches are automatically going to reach out and alert your 
doctor to the fact that it is going on. You want to have 
connectivity when you do that.
    So there are just innumerable examples and 5G will multiply 
it.
    Senator Hassan. Yes, and not to mention that when you have 
certain areas in the healthcare system where you have a 
shortage of providers, the capacity to do telemedicine is 
increasingly important, as it is for people who live far away 
from providers.
    And so, one of the challenges we continue to consider here 
in New Hampshire is we would like so many people in our rural 
areas to be able to access medicine through a tele-connection. 
Right now, that is an idea, but it is still very hard to 
actually make a reality because of our connectivity issues.
    Yes.
    Mr. Shepperd. I would like to add that whole workforce 
development side in the STEM pipeline is critical. We need this 
infrastructure to make sure that our children are trained 
properly, have access to the tools they need, get rid of the 
Digital Divide, and have the workforce available for our New 
Hampshire companies.
    And then related to that, some of the work that our 
broadband mapping and planning program has done, and is 
continuing to do, as part of the Northern Borders Regional 
grants, is to hold workshops.
    We have one next Wednesday in Claremont that presumes, if 
you already have access to broadband, are you using it 
properly? Do you know how to get yourself onto Yelp and make 
sure that when people are looking for restaurants, they know 
that you are there?
    Senator Hassan. Right.
    Mr. Shepperd. And so, I think that is critical to expanding 
this.
    Senator Hassan. Yes, a very good point and especially as we 
think about different ways to do workforce training.
    People will need to probably update their credentials now 
on a regular basis in a very fast moving digital economy, and 
the importance of being able to do that in a way and at a time 
that makes sense, given people's busy lives, is really 
increasingly important.
    I want to turn now to some of the local issues that were 
raised from folks in anticipation of today's hearing.
    I recognize that the panelists may not have had the 
opportunity yet to read the written testimony that has been 
submitted, but I would like to share some of what has been 
submitted from some folks in this part of the state.
    I will start with what we heard from State Senator Jay 
Kahn. He notes that it is estimated that 25 percent of Cheshire 
County, which is the county in which we sit right now, 25 
percent of Cheshire County residents are un-served or 
underserved when it comes to broadband access.
    Senator Kahn relates several stories from his constituents, 
one who needs broadband for their job and their livelihood, and 
one family who subscribes to two DSL companies so that way they 
have a backup if one company's service is too slow on a 
particular day.
    Mr. Joshua Meehan, a Keene resident, also submitted written 
testimony in which he described at length his battle with a 
cable provider in trying to get broadband service for his home 
and his neighbor's home in Keene.
    For people in our state, a lack of affordable access to 
broadband continues to be a real and serious challenge, as some 
of these comments and testimony reflect. So I want to start 
just by talking with Mr. Spellmeyer and Mr. Reed.
    What is your message to the people in Keene, and Cheshire 
County, and other densely populated areas of our state? How can 
we attract companies like yours and others to provide high 
quality and affordable service?
    Who wants to go first?
    Mr. Spellmeyer. I will go ahead.
    So U.S. Cellular does serve Keene. We have a store here in 
town. We do our best to try to provide quality service.
    We went from 3G to 4G quickly. We will try to go from 4G to 
5G quickly. It is easier to go from one level to another than 
to bring that fundamental base service to an area because you 
have to construct a tower in order to do that. So the good news 
is for places where we are already at, the ability to upgrade 
comes quicker.
    As I said, I saw it coming over. What we struggle with is 
if we are not there, we have to figure out how to construct a 
tower at, let us say, $400,000 to $500,000 and then bring in 
backhaul, pay for that backhaul every month from a provider 
like FairPoint. It becomes a question of, how many of those 
places can we go to in a given year?
    Prices in the wireless industry have fallen dramatically, 
which has hurt revenues. It is just a really tough business 
equation to bring service beyond where it is today. It is a 
density factor for us.
    Senator Hassan. Right, and so what we are hearing from 
residents of Cheshire County, and in the North Country--and 
really even in other pockets of the state where people assume 
everything is well-connected--is that even in dense areas, 
there are some barriers.
    I want to give Mr. Reed a chance to answer this, too, and 
then I want to follow up with you all.
    One of the questions that your answers help us focus on is 
if the private sector cannot, for some reason, get to 
everywhere it needs to get, then the issue of whether 
municipalities should be somehow empowered to becomes another 
question.
    So Mr. Reed, why don't you start and then we will follow up 
on that issue?
    Mr. Reed. We will follow up on that issue. It is really 
important to me.
    I apologize. I did not have the opportunity to read the 
testimony.
    Senator Hassan. Right.
    Mr. Reed. But I do have a little bit of data here. I do 
want to just level set for a second because it almost feels 
like we are sitting here saying, ``Everything is stagnant. What 
are we going to do?''
    Broadband is improving every day and construction is going 
on every day. I do not want anyone to think that it is not. And 
I am not just going to speak for my company, but my competitors 
as well.
    Just improving broadband speeds from what it was like 3 meg 
up to 25 meg. That is a technology issue. Technology has 
allowed us to do that. We have changed our technology for every 
CAF-II project and every remote we build so that if you are all 
the way out at the end of the line, like at 16,000 feet, 12,000 
feet, 12,500 feet, you are going to get 10-over-1. If you are 
in closer, you are going to get up to 50-over-20.
    So I just want to make sure that work is going on while we 
are sitting here. So I just want to capture that.
    The Federal Government recognized Cheshire County. I 
actually, totally by accident, brought a piece of paper with me 
that might be helpful.
    This is what the mapping shows and this is what FairPoint 
accepted in Cheshire County in New Hampshire, the CAF map. The 
Federal Government is going to support 2,145 locations. They 
felt that it was worth $566,000. So the Federal Government is 
putting that much money in that we are going to build those 
locations and some are in progress.
    I took a look at just what our projects are going on now. 
Since 2008, we have added 700 remote locations in New Hampshire 
moving our switching equipment out closer to the customer to 
allow for broadband. But right now, we have, say, 50 projects 
in the works. Twenty-two of them are around the Monadnock area, 
a bunch more are in the North Country. That is no surprise. 
That is what showed up on the Federal Government's map.
    So there is work going on, Senator, and that work is going 
to continue.
    Mr. Spellmeyer and I were talking. It is really just money. 
So we have to make a business case. I am not a firm believer in 
``build it and they will come.'' It is, ``Build it and let us 
figure out how we are going to get people to use it.''
    Digital literacy is a key factor in how it will improve our 
business models. It will improve the private sector and it will 
get more people on the Internet. So we need to include that, 
too, in our forecast.
    Senator Hassan. Mr. Strickland wants to comment on this. So 
why do we not start with that? And then I have a follow up.
    Mr. Strickland. So to the commercial providers on this 
panel, they have cited a number of times the need to make the 
ROI case for a build out, and that is perfectly understandable. 
I am a businessman too.
    I think this is a case where private enterprise does not 
necessarily work as well as we wish. We have a model that has 
been very, very successful. We have universal telephone service 
and have had for a long time.
    I do not think we can afford to treat broadband differently 
than that anymore. It was a luxury for a long time, but it is 
not anymore. There are people now that have broadband that do 
not have a copper phone line.
    Senator Hassan. Right.
    Mr. Strickland. And I think the time has come to treat this 
like the utility that it really is and address it that way.
    Senator Hassan. So that brings us to this question if a 
service provider either, to put it one way, cannot because the 
business model does not work for them to get out to that last 
mile of connectivity or for some other reason refuses to, 
should municipal options be available?
    Anybody can answer that. I see Mr. Strickland is nodding.
    Mr. Reed. I am happy to talk about it simply because we 
have worked with so many municipalities on this issue in the 
three states, a couple hundred of them, Keene being one of 
them.
    The very first thing we do is to map what FairPoint has. We 
do not always know what our competitors have. We map what 
FairPoint has.
    I do not want to generalize, but I would say the vast 
majority of the groups we have spoken with--it does not mean it 
was municipal government. It may have been a group within the 
town that is trying to improve broadband--were surprised by how 
much fiber there is, and what speeds were available.
    In some cases, it is only a small piece of the town that 
they decided they wanted to address. Or, ``We can afford to 
address this.'' Or, ``What is it going to cost to do this 
industrial park that we are planning?''
    So education upfront is really critical before we just 
blanket say, ``Yes, it is a good idea to overbuild an existing 
network.''
    Senator Hassan. I do want to say that I think for people in 
this part of the state, people in the North Country, the notion 
that they should be worried about overbuilding right now would 
seem----
    [Laughter.]
    Senator Hassan. Part of what we are dealing with here, and 
maybe in a moment we can talk a little bit more about broadband 
mapping, is that there does seem to be this ongoing different 
understanding of the level of connectivity for people in so 
many parts of our state.
    It is of deep concern to me because I will often have one 
conversation with providers and industry about the levels of 
connectivity and then I am out. I drive all over the state and 
as Governor there were parts of the state where I would have to 
say to people, ``You are not going to be able to call me 
between X and Y because I am going to be on Route 9.''
    And so, I want to perhaps just say that we should commit to 
each other to continue this discussion and really drilldown on 
this issue.
    I am seeing motion over here and then Mr. Cyr, do you want 
to go and then Commissioner, I do not know if you had a 
comment, and then we will go back down to Mr. Spellmeyer?
    Mr. Cyr. Great. Thank you. Just to add a little bit of 
color to both the deployment side as well as the municipal 
interest in broadband.
    I live in Portsmouth, city councilors here in Portsmouth. 
My business, I am actually a FairPoint customer, fair 
disclosure----
    Senator Hassan. Yes.
    Mr. Cyr.--for fiber right now, and enjoy it, and have for 
many years.
    Our business in the past has been a FairPoint customer with 
gigabit Internet speeds. We moved two blocks away and we are no 
longer able to be a FairPoint customer for any speed that was 
going to be acceptable for our business, and we had to move 
providers. It has happened twice while I have lived in 
Portsmouth just in broadband Internet. Even though we have 
considerable----
    We actually have options in Portsmouth, which is unusual 
for many areas of the state. Even then, it is actually 
difficult for businesses to pay cancellation fees and all the 
other things that are, but related to that.
    Although it has not got up to the city council level, there 
have been discussions among residents about this very topic of, 
``Should we be looking at providing Internet services on a 
municipal level?''
    So I know it is even in places like Portsmouth, without 
gigabit Internet speeds in the city for at least some places is 
all still a conversation is being had.
    Senator Hassan. Thank you.
    Commissioner and then Mr. Spellmeyer.
    Commissioner Rosenworcel. I am going to just try to take 
this up a level.
    I think there is no knowhow like New England knowhow that 
our forbearers here when we did not have bridges, we did not 
have roads, we did not have barns. Our communities came 
together and we figured out how to get things done.
    Senator Hassan. Right.
    Commissioner Rosenworcel. And the truth is, I think with 
broadband, it is an expensive proposition in rural America. And 
the map shows it is hard for financing, deploying, and 
operating these networks.
    But at the same time, I think it is fundamentally true that 
it is small ``D'' democratic that communities should be able to 
come together, if they feel the private sector is passing them 
by, and try to explore if they can do it for themselves.
    I think that is part of our history, and I think it should 
be allowed. The challenge is that there are many State laws 
that tend to prevent that from happening.
    So what bothers me about that is those communities do not 
even get the right to explore and have that conversation. And I 
think, as a democratic community governance matter, it is 
something they should be allowed to do.
    Senator Hassan. Thank you.
    Mr. Spellmeyer.
    Mr. Spellmeyer. Just briefly on the issue raised before 
about mapping accuracy and multiple providers. It is one of my 
really hot button issues.
    What goes on with these maps, when they make maps of where 
there is coverage and is not coverage, particularly in the 
wireless industry is you come to Keene, and U.S. Cellular has 
coverage. And so, they check off the map and they say, ``Keene 
is done.''
    Senator Hassan. Right.
    Mr. Spellmeyer. And then you go four counties to the north, 
U.S. Cellular may not have any coverage there and let us say 
that AT&T does. Well, they check off that part of the map and 
they say, ``The job is done.''
    The problem is the only way as Governor you could 
experience traveling around the state is you have to carry a 
U.S. Cellular phone, and an AT&T phone, and a Verizon phone in 
order to make your way across the whole state. That gets 
completely ignored in this mapping process.
    It has been a problem. I tried to argue it to FCC Chairman 
Wheeler last year, and he looked at me, and he said, ``Do not 
go around telling people we need to get multiple phones from 
multiple providers.''
    [Laughter.]
    Mr. Spellmeyer. And I understand, and he probably will not 
appreciate me mentioning that, but it is the truth. I am 
carrying devices from three carriers. I live in Washington, 
D.C. I travel the whole country.
    Senator Hassan. Yes.
    Mr. Spellmeyer. And I need to do that in order to get 
connectivity. But that does not work for the average American 
and somebody has to carry that message to policymakers at the 
FCC.
    Senator Hassan. Thank you, which is a very good segue into 
a question I was going to have on the whole issue of mapping.
    Commissioner, the FCC is now responsible for maintaining 
the National Broadband Map. It is my understanding, though, 
that the agency has not updated that map in years.
    So is the FCC taking this responsibility related to the map 
seriously and how can we improve it?
    I take it that your e-mail site for people to report in is 
part of your effort.
    Commissioner Rosenworcel. Sure. I think this is a big 
problem. You cannot manage problems you do not measure. Our 
maps are now 3 years out of date.
    More than that, I think most of us are familiar with the 
experience where we are told we have service, and you are 
standing there, and you say, ``No, I do not.''
    Senator Hassan. Right.
    Commissioner Rosenworcel. I know that experience happens 
more in rural communities than anywhere else. So we are going 
to have to figure out how to make sure our maps operate at a 
level of precision that is meaningful to people on the ground.
    And so that is why we just set up an e-mail inbox 
BroadbandFail-at-FCC.gov because I think we have to start 
asking people to help us. Asking people to tell us where they 
have service and where they do not.
    You can tell me that that is not the most scientific 
method. I think we are past the point, though, where just 
combing over data in Washington conference rooms is the way to 
get this done.
    So we are going to try to suggest to everyone, and we are 
starting here with you, New Hampshire. But if you write us at 
BroadbandFail-at-FCC.gov, we will take your stories and 
aggregate them, and I will share them with my colleagues, and 
see if we can use that to inform our next generation of data 
and mapping efforts.
    Senator Hassan. Well, thank you.
    It is my understanding, too, that there is a lack of 
standardized reporting from different providers in terms of 
what qualifies as connectivity on the ground and what does not. 
Would that help as well?
    Commissioner Rosenworcel. You are right. We are going to 
have to come up with Digital Age standardization for what we 
consider served and not served. I feel like we are working off 
of old Analog Era models.
    Senator Hassan. Yes.
    Commissioner Rosenworcel. We are going to have to do it 
with a level of precision that is new, and different, and more 
meaningful.
    Senator Hassan. Thank you.
    Mr. Spellmeyer.
    Mr. Spellmeyer. Senator, if I could just say maybe a word 
of thanks to you and your colleagues in the Senate.
    Three or four years ago, the FCC staff prepared a draft 
order that had a whole bunch of conclusions in it about the 
fact that wireless coverage was everywhere in rural America. 
The job was done. We looked at it. We said, ``We know that is 
not true.''
    Senator Hassan. Right.
    Mr. Spellmeyer. We set about fighting it, but I would say 
we made the most progress because if there were 100 people in 
this country that understood the problems that were actually 
going on, on the ground, it was the 100 members of the Senate.
    And on a bipartisan basis, you have made a lot of noise and 
it has had a lot of impact in moving us in the right direction 
toward fixing that mapping. So thank you.
    Senator Hassan. And I will transfer the thanks to 
constituents of the 100 senators----
    [Laughter.]
    Senator Hassan.--because they are the ones who make sure we 
really know.
    Mr. Shepperd.
    Mr. Shepperd. I just wanted to add, and sort of reinforce, 
that that reporting at the census block level is never going to 
cut it either.
    Senator Hassan. Right.
    Mr. Shepperd. There is such a gap there and I do not know 
why in this day of Big Data, we cannot have an online, live 
database that all the providers are required to respond to.
    Senator Hassan. That is a great idea.
    Mr. Strickland.
    Mr. Strickland. And I would just extend the Commissioner's 
comment about establishing some standards for service.
    As somebody who is in the role of acquiring service for a 
variety of different needs and at different levels, I would 
love to see at least three levels of classification of service 
so that I could look at the map and know that, ``Yes, I can get 
service for this business. They do not need gigabit service, 
but they need reliable 50 megabit service.''
    Senator Hassan. Thank you.
    I want to change the focus just a little bit to a more 
complete discussion of what the Commissioner has referred to as 
``the homework gap.''
    Commissioner, you have worked diligently to find ways of 
ensuring that our Nation's students can access the Internet to 
complete assignments, and gain the social and economic benefits 
of being connected so that they can compete in a global 
economy. You have coined the phrase, ``closing the homework 
gap,'' to refer to this endeavor.
    What are the greatest challenges and opportunities you see 
for us in being able to close the Homework Gap and how can we 
better utilize the Universal Service Fund to do that?
    Commissioner Rosenworcel. Thank you. I appreciate you 
asking me about this.
    I think kids not being able to do their homework is 
probably the cruelest part of our Digital Divide.
    Senator Hassan. Right.
    Commissioner Rosenworcel. It is necessary for success in 
school and in the economy right now.
    And so, we should be pouring every resource we have to fix 
it. That includes Universal Service programs at the FCC that 
help with deployment and help low income households in getting 
connected. I think every way we can scrub those programs and 
see how they can help the Homework Gap is important.
    I also think we should consider how the E-Rate program 
might be able to help fund wireless routers on school buses 
because in rural America, kids spend much more time on a school 
bus getting to school in the morning and going home at night. 
And if we turn that ride time into connected time for homework, 
that can make a big difference.
    I also think communities can do a lot because there are 
communities right now that are mapping the safe spaces they 
have for kids to do their homework. It might be a coffee shop 
or the library, but we have some places where the hotel in town 
kicks in or the big store decides that they will set aside some 
connectivity that can be used by students.
    If we can map those places as a community, I think that we 
will all contribute to solving this problem faster.
    Senator Hassan. Thank you.
    Mr. Shepperd, can you explain how New Hampshire has used 
Federal support to build out broadband coverage in the State 
schools and work to close some of that Homework Gap?
    Mr. Shepperd. Absolutely. As you are aware, you created the 
New Hampshire School Connectivity Initiative.
    Senator Hassan. I really did not mean it that way.
    [Laughter.]
    Senator Hassan. But thank you.
    Mr. Shepperd. At the time, the Telecom Advisory Board and 
the Governor's Office were both looking at the same thing. We 
were doing a connectivity assessment of our schools. Again, you 
have to have the data to know where to go next. You were 
approached by Education Super Highway.
    Senator Hassan. Right.
    Mr. Shepperd. So we have been working collectively with 
them and over the past 2 years, we went from 32 percent of our 
K through 12 schools not being connected down to 24 percent, 
and this year, we hope to connect the remaining 39 districts to 
get fiber.
    And it is all based on the E-Rate program and making sure 
that those schools who have never filed E-Rate before know that 
it is available.
    As part of the New Hampshire SCI Initiative and Education 
Super Highway, we got the state to appropriate $4 million 
matching, which will be matched by the FCC E-Rate program. So 
we are cutting down the cost of the local community by doing 
that.
    Senator Hassan. Great.
    I will add that just one of the reasons that we ended up 
focusing the way we did in the Governor's Office on this, 
again, has to do with leadership at the community level.
    Because one of the things you learn if you travel New 
Hampshire and visit a lot of schools--even in our very smallest 
towns way up north--you find that when they have cracked the 
conundrum of how to connect to get the right kind of speed, the 
educational opportunities that are then opened up to students 
in very small communities just are amazing.
    And so, to walk into a classroom, as I have done, in a very 
small town in the northern part of our state and see students 
looking at scenes of Chinese urban areas in real time to begin 
to understand how the Chinese organize certain kinds of 
economies and other things was just really amazing because 
these kids were getting real time visuals from a part of the 
world that they would never be seeing in any other way.
    So there are great examples throughout our state of what 
you can do, how you can leverage that connectivity for our 
students, and it was a real impetus for me to try to find ways 
to make sure that all students had that kind of access. And 
when you ask students, even at very young ages, what being 
connected means to them, they can articulate it incredibly 
well.
    So thank you for your work on that and I look forward to 
continuing to work with you as we get the last group of schools 
connected.
    Mr. Shepperd. Senator, I have a follow up to that.
    Senator Hassan. Yes.
    Mr. Shepperd. So there are two interesting things. So part 
of it is about getting connectivity to the school and fiber to 
all the schools. Part of it is education because unfortunately, 
we have run into some schools that have very low bandwidth and 
say, ``It is perfectly adequate for what we need today.''
    Senator Hassan. Yes.
    Mr. Shepperd. So that is another scary place that we are 
trying to work on.
    And then the other piece was that there are rumblings about 
some of the E-Rate Modernization Act being rescinded. Our New 
Hampshire SCI Initiative was first about school connectivity 
and then we were going to move into Wi-Fi in the schools to 
make sure that you could actually use that connectivity.
    Senator Hassan. Right.
    Mr. Shepperd. And I understand that that is in jeopardy. So 
whatever we could do to help with that certainly we'll do.
    Senator Hassan. A number of us in the Senate are very 
concerned that there may be a rescinding or elimination of the 
E-Rate program and some restrictions on the other Universal 
Service programs.
    And so, we have been advocating for the continuation of 
them and we will continue to reach out to the public because I 
think it is really important for the public to weigh in on how 
important connectivity is and how important the E-Rate programs 
have been.
    The other thing that the Super Highway program really 
helped with is it is not just about having the connectivity and 
getting the right speeds. It is also working with local school 
districts, for instance, so that they know how to get the best 
deal and how to understand what they should be paying, what is 
reasonable, what is not. And that is where the expertise of 
people in your shop and the Super Highway shop has been so 
important too.
    Anybody else want to comment just on the Homework Gap or 
have anything?
    Mr. Spellmeyer.
    Mr. Spellmeyer. The only thing I was thinking of, I was 
remembering last year.
    I know U.S. Cellular participated in a pilot project in the 
state of Maine to put wireless, the small wireless routers, 
into the hands of schools where they could be checked out in 
the library and taken home by students who needed it at home.
    And I recognize there are challenges with watching hundreds 
of hours of video, but there are other applications as well 
that that kind of speed still works very well for.
    I know that some of your colleagues, including Senator King 
in Maine, were working on getting that funded in the education 
bill--and I, frankly, lost track of where that ended up--but 
trying to expand those types of efforts.
    Senator Hassan. Anyone else want to comment?
    Well, I want then to turn to the topic of direct spending 
here for broadband infrastructure.
    Commissioner, even with everything the FCC is doing with 
the Universal Service Fund, many believe that an additional 
infusion of direct funding is needed to close the digital 
divide and to make broadband access truly universal.
    Senate and House democrats recently unveiled an 
infrastructure plan that included $40 billion in direct 
broadband infrastructure spending.
    Now, I am still evaluating the plan, but Commissioner, do 
you agree that direct spending is necessary to eliminate the 
Digital Divide and to make broadband truly ubiquitous?
    Commissioner Rosenworcel. Yes. That is the simple answer. I 
will add to that just a little bit.
    Senator Hassan. Yes.
    Commissioner Rosenworcel. And tell you that we have some 
places in this country that are at risk of falling behind. By 
and large, they are rural.
    So the more funds that we can get to those communities to 
make sure that they are connected and the faster that we can do 
that, the more likely that they are going to be able to 
participate in 21st century economic success.
    Senator Hassan. Thank you.
    Anybody else on the panel want to comment on what direct 
investment in infrastructure would help us do?
    Mr. Spellmeyer. Well, I certainly believe it is crucial. I 
think it was Mr. Strickland that talked about how we got basic 
telephone service out to everybody in this country, and that 
was a direct Government investment to get it done and the same 
thing is needed in the broadband area.
    We strongly support any, and all, efforts including the 
package that you referred to.
    Senator Hassan. Thank you very much.
    We are getting close to the end of our time here. We wanted 
to wrap up by noon, and I am going to ask one more question, 
and then if any of you have any closing thoughts, I will ask 
for those. But the last topic I wanted to touch on today was 
about broadband speeds.
    Recently, the Federal Communications Commission requested 
public comment on a Notice of Inquiry which raised questions 
about whether mobile broadband can be substituted for fixed 
broadband.
    This would lower broadband speeds from the current 
standards by almost two-thirds. It would have a devastating 
impact on rural Americans in New Hampshire and beyond for us to 
begin to say, ``Your mobile speed is the best that we are going 
to do,'' and rural America will just have to live with a speed 
that is two-thirds less than the rest of the country.
    Commissioner, what is your response to this Notice of 
Inquiry and what would be the further impacts of replacing 
fixed broadband service with mobile across the country?
    Commissioner Rosenworcel. My response is that that idea is 
crazy and I will tell you why.
    We need big bandwidth and we need it everywhere. Right now, 
the agency has a 25 megabit standard and if you have a 
household with a few people in it who want to watch video, look 
some things up, you will understand that is necessary.
    Rolling it back to 10 megabits does not make any sense. The 
future is bigger than that. I think our standard should be 100 
megabits because I think you have to set big goals if you want 
to do audacious things.
    Senator Hassan. Thank you.
    Would anybody else like to comment?
    Mr. Strickland.
    Mr. Strickland. I would wholeheartedly agree. I may be the 
oldest one on here and I remember starting my career on a 300 
baud modem. So I come from a long way.
    I think that the ways that we consume bandwidth are growing 
very rapidly. So you have to aim very high and even that will 
not be enough. But certainly, 100 megabits is not at all 
unreasonable for home use.
    And I want to point out that when we talk about bandwidth 
for home use, it is mostly down stream use. It is Netflix and 
so forth. For businesses, it needs to be symmetric.
    Senator Hassan. Right.
    Mr. Strickland. So I make the distinction between consumer 
grade and business grade bandwidth as a business grade 
connection is a symmetric connection with low latency and an 
SLA, so that we know that it is going to work.
    Businesses need to be able to upload large amounts of data 
just as well as to download it.
    Senator Hassan. Thank you.
    Yes, Mr. Spellmeyer.
    Mr. Spellmeyer. One of the things that people lose track of 
is that there is already a law about this. It was in the 
Telecommunications Act.
    It requires that the Commission work to ensure that 
consumers in rural areas have access to reasonably comparable 
services to folks in urban areas. And there certainly are 
plenty of folks in urban areas that are getting very high speed 
on wireline and wireless. The law already says that it should 
be delivered to folks in rural areas and, frankly, regardless 
of cost.
    And so, we are supportive of every effort to try to drive 
the speeds as high as possible.
    Senator Hassan. Thank you.
    Mr. Reed. If I could just add a bit of a note of caution. 
Broadband speed and everyone's definition of served and 
underserved is very wide. Upload speeds are becoming more and 
more important.
    If you take a look at the current CAF or CAF-I was 4-over-
1. CAF-II is 10-over-1. That is simply mathematics of how much 
we can get done for how much money. And I do not disagree with 
the Commissioner. We are headed toward 100 meg. That is going 
to be extremely, extremely expensive.
    But our technology, everything is heading in that 
direction. Simple things like the example I had of going from 3 
meg to 25 meg. No rocket science there. We added another remote 
and the technology allowed us to do that. So the industry is 
moving that way. The needs of the consumers are moving that way 
and we just keep on that path.
    I am very sensitive to people saying, ``Oh, you are 
building 10-over-1. The Federal Government has cast us aside. 
They do not know what we need out here.''
    So we just have to be careful of our message.
    Senator Hassan. Thank you.
    Mr. Shepperd.
    Mr. Shepperd. I would just add to that, and it is what I 
put in my testimony that whatever Federal funds, if we got $40 
billion, that would be a wonderful thing. We need to make sure 
that we put it toward the future technology.
    Senator Hassan. Right.
    Mr. Shepperd. And not keep expanding on copper-based 
technology. Utilize it and get the best of it we can.
    I look at just UNH's service. Our Wide Area Network in 
2008, we were buying 1/2-a-gig of Internet. We are now buying 
40 gig of Internet and we have multiple 10 and 20 gig channels 
between our institutions.
    Senator Hassan. Right.
    Mr. Shepperd. So that ramp looks like this and that is 
going to be true for the consumers and the businesses as well.
    Senator Hassan. Thank you.
    Mr. Cyr.
    Mr. Cyr. So just--and this is for those that do not follow 
technology very well--we might think the technology growth goes 
along a traditional ramp like this. This is how we, as humans, 
think.
    The reality of technology at option is what we just heard. 
It curves like this and so we do not anticipate until it is way 
too late the radical change in demand, radical change in 
consumption.
    And so, by doing something like this, it would be literally 
setting a tone which would enable even more of a Digital Divide 
and it would be telling our residents that they simply do not 
matter.
    Senator Hassan. Well, I thank you for that. One of the 
things that I think a lot about, too, is that looking towards 
the future, trying to make sure that we are building out for 
the technology that has not been created or refined yet, is 
critically important.
    There is also a real potential, it seems to me, of 
recognizing real savings in terms of what the United States 
Government does or what State governments do if we have the 
technology to get the kind of data we need, that helps us make 
our really important investment, and programmatic, and policy 
decisions.
    What programs work and what do not? Well, sometimes we do 
not really know that without data, and it is very hard for 
Government, sometimes, to get data if we do not have access to 
this kind of technology and speed.
    And so, just as there is a real value added for businesses 
now--and just as there is a really critical value in terms of 
the kind of innovation that we can spur if we have this kind of 
access to high speed, high quality broadband everywhere--there 
is also a real value, it seems to me, to Government efficiency 
and decisionmaking moving forward.
    And so, I think the investment that we are talking about is 
really critical in any number of areas. And I have to tell you 
how grateful I am to all of you, not only for being here this 
morning and being willing to take so much time to talk about 
these issues, but also just in the work you do, and in the 
leadership roles you have taken on in trying to make sure that 
we are addressing the connectivity issues that we are facing 
which are challenges, but they are also obviously provide great 
opportunities for us moving forward.
    Do any of you have any further closing comments you would 
like to make before we wrap up?
    Mr. Strickland.
    Mr. Strickland. I know that what we are hoping to 
accomplish here is expensive on the order of $40,000 to $50,000 
a mile for fiber, sometimes more. I would point out that a mile 
of asphalt costs more than a mile of fiber. We do not hesitate 
to build asphalt roads.
    Senator Hassan. Right.
    Mr. Strickland. We can solve this.
    Senator Hassan. Thank you.
    Anyone else?
    Mr. Reed. Just quickly, I would like to say thank you for 
this. We need to talk about this and we need to talk about it 
in this type of forum; a nice balanced forum. It was very 
helpful.
    We are really, I think, at the point of we need private-
public partnerships be it at the Federal level, or the State 
level, or the municipal level. We had a partnership with a 
municipality here in New Hampshire, Moultonborough. Very 
successful.
    Senator Hassan. Yes.
    Mr. Reed. So we are there. I think we can do this. I know 
we can do this. But thank you for this opportunity and I hope 
we can get that awareness out there, Senator.
    Senator Hassan. Thank you very much.
    Anyone else?
    Well, I cannot thank you enough, all of you, again, for 
attending today, and for the work you do.
    One of the great privileges of sitting on the Commerce 
Committee, too, is learning about the emerging technologies 
that are so dependent on connectivity and access to high 
speeds. And so, I am excited by what is possible, but I am also 
continuing to be concerned about having the infrastructure we 
need to leverage the emerging technology and innovation. So I 
will continue to work on the issue.
    I thank everybody so much for attending today.
    The hearing record for this hearing will remain open for 2 
weeks. During this time, Senators are asked to submit any 
questions for the record. And upon the receipt, the witnesses 
are requested to submit their written answers to the Committee 
as soon as possible.
    If there are people who are attending today or who see this 
during this open period, if it is replayed on video, and want 
to submit questions through my office, I can certainly then 
submit them to the witnesses.
    You can contact my office. My central office in New 
Hampshire is in Manchester. We also have offices in Portsmouth, 
Berlin, Concord, and Nashua.
    So with that, I will close the hearing and thank very much, 
the witnesses again, for you participation.
    Thank you.
    [Whereupon, at 11:55 a.m., the hearing was adjourned.]

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
